<html>
<title> - THE OLDER AMERICANS ACT: STRENGTHENING COMMUNITIES TO SUPPORT THE NEXT GENERATION OF OLDER AMERICANS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                 THE OLDER AMERICANS ACT: STRENGTHENING
                    COMMUNITIES TO SUPPORT THE NEXT
                     GENERATION OF OLDER AMERICANS

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                   April 3, 2006, in Edinburg, Texas

                               __________

                           Serial No. 109-33

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov
                                 ______

27-977 PDF             U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2006
_________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                           Ranking Minority Member
Mark E. Souder, Indiana              Danny K. Davis, Illinois
Jon C. Porter, Nevada                Chris Van Hollen, Maryland
Bob Inglis, South Carolina           Tim Ryan, Ohio
Luis P. Fortuno, Puerto Rico         George Miller, California, ex 
Howard P. ``Buck'' McKeon,               officio
    California,
  ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 3, 2006....................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Ranking Minority Member, Subcommittee 
      on Select Education, Committee on Education and the 
      Workforce..................................................     3
        Prepared statement of....................................     5
    Tiberi, Hon. Patrick J., Chairman, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Anzaldua, Rosa, program participant, Amigos del Valle, 
      prepared statement.........................................     6
    Dominguez, Armando, Assistant Director, Center on Aging and 
      Health, University of Texas-Pan America....................    13
        Prepared statement of....................................    15
    Gonzalez, Joe, Director, Area Agency on Aging of the Lower 
      Rio Grande Valley, prepared statement......................    31
    Perez, Jose T., Executive Director, Senior Community Outreach 
      Services, Inc..............................................    20
        Prepared statement of....................................    22
        Additional testimony submitted...........................    35
    Sullivan, Marlon, Senior Director of Staffing, the Home Depot    16
        Prepared statement of....................................    19
    Urban, Karl, Manager, Policy Analysis and Support, Texas 
      Department of Aging and Disability Services................     7
        Prepared statement of....................................     9

 
                        THE OLDER AMERICANS ACT:
                       STRENGTHENING COMMUNITIES
                     TO SUPPORT THE NEXT GENERATION
                           OF OLDER AMERICANS

                              ----------                              


                         Monday, April 3, 2006

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                              Edinburg, TX

                              ----------                              

    The subcommittee met, pursuant to call, at 8:45 a.m., in 
room 1.102, International Trade and Technology Building, the 
University of Texas-Pan American, 1201 West University Drive, 
Edinburg, Texas, Hon. Patrick Tiberi [chairman of the 
subcommittee] presiding.
    Present: Representatives Tiberi and Hinojosa.
    Staff Present: Ricardo Martinez, Legislative Assistant; 
Moira Lenehan-Razzuri, Legislative Assistant; Kate Houston, 
Legislative Assistant; Angela Klemack, Legislative Assistant; 
Lucy House, Legislative Assistant.
    Chairman Tiberi. Good morning. A quorum being present, the 
Subcommittee on Select Education of the Committee on Education 
and the Workforce will come to order.
    We are meeting today to hear testimony on ``The Older 
Americans Act: Strengthening Communities to Support the Next 
Generation of Older Americans.''
    I ask the members to consent for the hearing record to 
remain open for 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted to the official hearing record.
    [Pause.]
    Without objection, so ordered.
    Good morning. Thank you all for joining us for this hearing 
on the Select Education Subcommittee of the Committee on 
Education and the Workforce. I want to extend my thanks to the 
University of Texas-Pan American and the University's staff for 
so graciously hosting this hearing and the breakfast this 
morning, which was outstanding. I also want to thank my friend 
and my colleague, Mr. Hinojosa, for welcoming me once again to 
the 15th district in the great state of Texas. You have been 
very accommodating and it's been a very warm visit.
    I must also congratulate my friend and his alma mater, 
University of Texas, on their NCAA Football Championship, with, 
of course, the ``help'' of my alma mater, Ohio State, for 
making that all possible. I do hope that UT will ``return the 
favor'' in September. Hopefully you will be as accommodating as 
we were this past year.
    It is great to be back here in Edinburg and McAllen, and, 
Mr. Hinojosa, you and your staff have been so gracious to the 
committee staff and my staff and myself. It's been a great 
visit. I look forward to coming back again for a future hearing 
somewhere in the 15th district, preferably right here. It's 
been a great place to come visit.
    This is the first of two field hearings we are going to 
have on the Older Americans Act. Field hearings offer Members 
of Congress a unique opportunity to listen to witnesses who can 
give us a local perspective on an issue. Field hearings are an 
important part of this reauthorization process because we often 
gain valuable insights that would be otherwise missed. It is 
with particular interest that I have traveled here to Texas 
where the ideas and challenges shared can be different than 
those expressed by my constituents in Ohio.
    Indifferent to residence in Texas or Ohio, the Older 
Americans Act recognizes the specialized needs of all seniors. 
These needs may include meals and nutrition, transportation, 
employment, recreational activities and social services, 
information about prescription drug benefits or long term care, 
just to name a few. We are fortunate that the United States has 
a sound infrastructure to support these needs. In fact, our 
robust aging network includes 655 local and 56 state agencies 
on aging. This year, the federal government invested nearly 
$1.8 billion to support the delivery of these services.
    Today, supporting the needs of older Americans is as 
important as ever. It is estimated more than 36 million people 
in the U.S. are over the age of 65, making it the fastest 
growing group in our country. According to the U.S. Census 
Bureau, by the year 2050, persons over age 65 will reach 90 
million and comprise almost a quarter of the total U.S. 
population. These astounding statistics make the upcoming 
reauthorization of the Older Americans Act all the more 
important.
    Over the course of the following months, this Subcommittee 
will be examining the current program, learning about evolving 
issues facing older Americans, listening to seniors in their 
own words, and laying out a plan for strengthening services to 
seniors that are authorized by this Act and relied upon by 
millions of aging Americans each year. We will work with 
President Bush, and we will work with you and other senior 
advocates, to ensure that the federal government is making the 
most out of the taxpayers' investment in the programs 
authorized by the Act.
    I am pleased to have with us a distinguished panel of 
experts to help us frame the issues for this hearing. I look 
forward to hearing your recommendations on issues and actions 
for the Subcommittee's deliberation. Before I introduce our 
witnesses, I will yield to my colleague, Mr. Hinojosa, for his 
opening statement.
    [The prepared statement of Mr. Tiberi follows:]

Prepared Statement of Hon. Patrick J. Tiberi, Chairman, Subcommittee on 
       Select Education, Committee on Education and the Workforce

    Good morning. Thank you for joining us for this hearing of the 
Select Education Subcommittee of the Committee on Education and the 
Workforce. I want to extend my thanks to the University of Texas-Pan 
American and the University's staff for so graciously hosting this 
hearing. I also want to thank my friend and colleague, Mr. Hinojosa, 
for welcoming me once again to the 15th district in the great state of 
Texas! He and his staff deserve much of the credit for organizing 
today's hearing.
    I am pleased to be here for the first of two field hearings on the 
Older Americans Act, which this Subcommittee is scheduled to consider 
this Spring. Field hearings offer Members of Congress a unique 
opportunity to listen to witnesses who can give us a local perspective 
on an issue. Field hearings are an important part of this 
reauthorization process because we often gain valuable insights that 
would be otherwise missed. It is with particular interest that I have 
traveled here to Texas where the ideas and challenges shared can be 
different than those expressed by my constituents in Ohio.
    Indifferent to residence in Texas or Ohio, the Older Americans Act 
recognizes the specialized needs of all seniors. These needs may 
include meals and nutrition, transportation, employment, recreational 
activities and social services, information about prescription drug 
benefits or long term care-to name a few. We are fortunate that the 
United States has a sound infrastructure to support these needs. In 
fact, our robust aging network includes 56 state and 655 local agencies 
on aging. This year, the federal government invested nearly $1.8 
billion to support the delivery of these services.
    Today, supporting the needs of older Americans is as important as 
ever. It is estimated that more than 36 million people in the United 
States are over the age of 65, making it the fastest growing age group 
in our country. According to the U.S. Census Bureau, by the year 2050, 
persons over age 65 will reach nearly 90 million and comprise almost a 
quarter of the total U.S. population. These astounding statistics make 
the upcoming reauthorization of the Older Americans Act all the more 
important.
    Over the course of the following months, this Subcommittee will be 
examining the current program, learning about the evolving issues 
facing older Americans, listening to seniors in their own words, and 
laying out a plan for strengthening the services to seniors that are 
authorized by this Act and relied upon by millions of aging Americans 
each year. We will work with President Bush, and we will work with you 
and other senior advocates, to ensure that the federal government is 
making the most out of the taxpayer's investment in the programs 
authorized by the Act.
    I'm pleased to have with us a distinguished panel of experts to 
help us frame the issues for this hearing. I look forward to hearing 
your recommendations on issues and actions for this Subcommittee's 
consideration. Before I introduce our witnesses, I will yield to my 
colleague, Mr. Hinojosa, for his opening statement.
                                 ______
                                 
    Mr. Hinojosa. Thank you very much, Mr. Chairman. I 
appreciate so much your opening remarks, and I want to also say 
that I am going to be switching from dark glasses to light-
colored glasses because I broke my prescription glasses 
yesterday, and I can't read without them. But my staff said 
that if I tried to substitute with these, these other glasses, 
that I won't look as conspicuous, but these are really the 
strong magnification that I can certainly read it much, much 
better, so forgive me if I switch back and forth.
    I have been to the Chairman's University of Ohio State, 
Ohio State University, and their courtesies and their 
hospitality and everything that has been shown both to me and 
my staff has been outstanding, so I'm glad that we are able to 
return that same hospitality and to show you how much we 
appreciate the times that you have come to the Rio Grande 
Valley and been able to see the potential in our area, 
potential in our people, and that all we need is for the 
federal government to continue to invest in human capital, in 
higher education, in infrastructure and those things that we 
have seen the last ten years that I have been in Congress.
    Your support on what happened last week on the passage of 
the Higher Education Act has, in that large piece of 
legislation, a program that was extremely important, as you 
learned back a year ago when you came for one of the hearings 
that postgraduate studies of master's and doctoral programs are 
something that will benefit this area a great deal.
    Raising the level of education attainment has made a 
significant difference over the last ten years in our area, 
where we've seen unemployment drop from 22 percent down to 6 
percent.
    And, again, your presence and your support in Washington 
for all of these programs that we've made you aware as being 
very important to us has been very beneficial, and again I 
wanted to publicly thank you for that.
    Chairman Tiberi. Thank you.
    Mr. Hinojosa. I would also like to thank the University of 
Texas-Pan American for hosting us again today. This is the 
Select Education Subcommittee's home here in this South Texas 
area. The University plays a vital role in our community and is 
a central player in improving the quality of life across the 
region. I am always proud to bring my colleagues as our 
chairman to this area so that they can visit and see that there 
is great potential.
    Most of all, I would like to thank the witnesses and all of 
the members of our community for joining us today. This hearing 
on the reauthorization of Older Americans Act is of critical 
importance. Our local aging network, our state agency and 
national organizations are vital links in our web of support 
for older Americans. This region is known for its dynamic 
growth and its youth. However, we also have a growing 
population of older Americans. As with the Hispanic population 
across the nation, many of our seniors are low income and rely 
on their families for their primary care.
    Many are more comfortable in Spanish than they are in 
English and need assistance navigating our health and social 
service systems.
    The Older Americans Act of 1965 is the landmark legislation 
that articulated our core values as a nation. The Act begins 
with a declaration of objectives, which includes the following: 
``Retirement in health, honor and dignity--after years of 
contribution to the economy.''
    This is a statement of our national obligation to older 
Americans.
    The Older Americans Act represents our commitment to 
meeting that obligation. This law provides for supportive 
services, as the Chairman read, that includes so many things; 
especially transportation, housekeeping and personal care. It 
provides nutrition services both at home and in community 
settings, and it provides preventative health services and 
supports family members.
    Finally, it protects the rights of vulnerable older 
Americans by combating consumer fraud and protecting seniors 
from abuse. That is something very important to us in South 
Texas.
    Your testimony today will help us understand how the 
programs in the Older Americans Act programs are working in 
this community. This region is a model for best practices on 
how to serve older Hispanic Americans. We will be looking for 
your suggestions and recommendations about how we can make 
improvements and expand the reach of these programs during the 
upcoming reauthorization.
    As we prepare for that, it is my hope that the chairman and 
I will continue the Select Education Subcommittee's tradition 
of bipartisanship. Together, Chairman Tiberi and I can work in 
ways that will strengthen and improve the programs that provide 
critical support to older Americans.
    Thank you, Mr. Chairman. I am looking forward to today's 
hearings and working with you to see that we come up with a 
reauthorization that will take us the next five to six years 
and be able to strengthen our support and the work that we do 
together.
    Thank you.
    [The prepared statement of Mr. Hinojosa follows:]

  Prepared Statement of Hon. Ruben Hinojosa, Ranking Minority Member, 
   Subcommittee on Select Education, Committee on Education and the 
                               Workforce

    Good Morning. I would like to welcome Chairman Tiberi to South 
Texas again and thank him for calling this hearing.
    I would also like to thank the University of Texas Pan American for 
hosting us again. This is the Select Education Subcommittee's home in 
the Rio Grande Valley. The university plays a vital role in our 
community and is a central player in improving the quality of life 
across the region. I am always proud to bring my colleagues here to 
visit.
    Most of all I would like to thank the witnesses and all of the 
members of our community for joining us today. This hearing on the 
reauthorization of the Older Americans Act is of critical importance. 
Our local aging network, our state agency, and national organizations 
are vital links in our web of support for older Americans.
    This region is known for its dynamic growth and its youth. However, 
we also have a growing population of older Americans. As with the 
Hispanic population across the nation, many of our seniors are low-
income and rely on their families for the primary care. Many are more 
comfortable in Spanish than English and need assistance navigating our 
health and social service systems.
    The Older Americans Act of 1965 is the landmark legislation that 
articulated our core values as a nation. The Act begins with a 
declaration of objectives, which includes the following:
    ``Retirement in health, honor, dignity--after years of contribution 
to the economy.''
    This is a statement of our national obligation to older Americans.
    The Older Americans Act represents our commitment to meeting that 
obligation. This law provides for supportive services, such as 
transportation, housekeeping, and personal care. It provides nutrition 
services, both in the home and in community settings. It provides 
preventative health services and supports family caregivers. Finally, 
it protects the rights of older vulnerable older Americans by combating 
consumer fraud and protecting seniors from abuse.
    Your testimony today will help us understand how the programs in 
the Older Americans Act programs are working in this community. This 
region is a model for best practices on how to serve older Hispanic 
Americans. We will be looking for your suggestions and recommendations 
about how we can make improvements and expand the reach of these 
programs.
    As we prepare for the reauthorization of the Older Americans Act, 
it is my hope that the Chairman and I will continue the Select 
Education Subcommittee's tradition of bipartisanship. Together, we can 
work together to strengthen and improve the programs that provide 
critical support to older Americans.
    Thank you, Mr. Chairman. I am looking forward to today's hearing.
                                 ______
                                 
    Chairman Tiberi. Thank you, Mr. Hinojosa. You do look good 
in those dark glasses.
    We have a very distinguished panel with us today, and 
before I ask them to give their testimony, let me introduce all 
four of them who are with us.
    Mr. Karl Urban is Manager of Policy Analysis and Support at 
the Texas Department of Aging and Disability Services. Before 
assuming his current position, Mr. Urban served in a variety of 
capacities with the state government, including as Deputy 
Director of the Texas Department on Aging, where he oversaw 
implementation of the state's Aging Texas Well initiative. Mr. 
Urban also held posts in the Texas Governor's Office and the 
Texas Health and Human Services Commission.
    Mr. Armando Dominguez is Assistant Director of the Center 
on Aging and Health at the University of Texas-Pan American. In 
this capacity, he oversees NIH-sponsored research on 
communities and the elderly. In addition, Mr. Dominguez is a 
lecturer on sociology and the sociology of health. He earned a 
master's degree in sociology from the University of Texas-Pan 
American.
    Mr. Marlon Sullivan is the Senior Director of Staffing at 
the corporate office of Home Depot in Atlanta, Georgia. In this 
capacity, he oversees enterprise-wide staffing operations 
encompassing all domestic and international retail stores, 
distribution centers, call centers, and the U.S.-based Home 
Depot headquarters. Mr. Sullivan has been involved in Home 
Depot's innovative partnership with SER-Jobs for Progress, a 
nonprofit organization providing job training and employment 
assistance to seniors through the Senior Community Service 
Employment Program.
    Mr. Jose T. Perez is the Executive Director of Senior 
Community Outreach Services, Inc., and has the been the 
director of the Senior Companion Program for more than 30 
years. His mission as an advocate for older Americans and as 
Director is to ensure that individuals age with dignity, 
purpose and security in an elderly friendly environment. Mr. 
Perez earned a degree in Community Services from the University 
of Texas-Pan American and holds several certificates on issues 
affecting the elderly.
    And, finally, our last witness was unable to join us due to 
a family emergency, Ms. Rosa Anzaldua is unable to be with us. 
Her testimony will be entered into the record.
    [The statement of Ms. Anzaldua follows:]

 Prepared Statement of Ms. Rosa Anzaldua, Program Participant, Amigos 
                               del Valle

    My name is Rosa Anzaldua, I am presently a resident at a property 
that Amigos Del Valle Inc. manages it is Villas Residencial/Casa #7 in 
Mercedes Texas, I moved into this property on October 6, 1999. I was 
born on March 8, 1934 in Mercedes and I am the 5th child of 10 
children. I have volunteer in different organization to assist other 
people, I volunteered in the Head Start Program, the food bank, I am a 
volunteer Circus Clown and I would visit the children, I visit the 
surrounding nursing homes and visit with the people that are sick, I am 
also a committee member for my church, in 2004 I was in film named 
Harvest of Redemption our screenwriter and director was Mr. Eddie 
Howell.
    I am currently an active participant with Amigos Del Valle; I 
participate in their meals program and live in their housing project. 
We have about 43 elderly people living in Villas Residencial/Casa #7 
and we also have participants that are provided transportation and the 
other participants drive themselves to the Center, we gather everyday 
at the center and we socialize and we have different kinds of 
activities, we also have presentations on programs that are available 
to us. Our meals are a well balance meal and our donation is 25 cents 
if we have them if we do not have the 25 cents then we can still have 
our meal. The meal program has helped a lot of our elders because they 
do deliver meals to their participants that can not make it to the 
center. If more funding was available for this type of programs more 
monies should be given to Amigos Del Valle to serve more clients. 
Amigos Del Valle has vehicles to transport our participants from and to 
the center if additional monies could be given to Amigos Del Valle more 
services would be provided to us to keep us active. Every day we also 
come to the center to talk and keep each other company we also play 
different kind of games. All Amigos Del Valle Centers are unique in 
their own way. Help Amigos continue to provide us with more services.
    I am very comfortable and happy in Villas Residencial/Casa #7 I 
have my own apartment and I feel very independent I feel good in being 
able to decide what I am going to do each day I feel safe living in 
Villas Residencial/Casa #7 and when ever we have a problem in our 
apartment the staff that is available here is very helpful, they attend 
to us and they make sure we are comfortable and happy, they fix 
whatever problems we have in our apartments even after hours. The staff 
is very knowledgeable in their work.
    Amigos Del Valle has 8 different properties around the valley and 
the assistance that is given to us is a great help because being in a 
fix income we need to be careful with our monies we are in a tied 
budget. Amigos Del Valle has help us in having a safe place to live.
                                 ______
                                 
    Chairman Tiberi. Before the panel begins, I would ask that 
each of our witnesses please limit their statements to five 
minutes. Your entire written testimony will be included in the 
official hearing record. With that, I will recognize Mr. Urban.

STATEMENT OF KARL URBAN, MANAGER, POLICY ANALYSIS AND SUPPORT, 
            TEXAS DEPARTMENT OF AGING AND DISABILITY

    Mr. Urban. Thank you. Good morning, Mr. Chairman Tiberi, 
Mr. Hinojosa.
    Chairman Tiberi. Good morning.
    Mr. Urban. My name is Karl Urban, and I am from the Texas 
Department of Aging and Disability Services. It is nice to be 
here in the Rio Grande Valley where my good friend Joe Gonzalez 
is the area Agency on Aging Director, and Dr. Elena Gonzalez is 
here, who is a former board member of the Texas Department on 
Aging, so it is always nice to be down here in the Valley to 
see my friends.
    The Texas Department of Aging and Disability Services was 
created in September of 2004 as part of the major 
reorganization of the Health and Human Services delivery system 
in Texas, and that has given us a great opportunity to kind of 
be a role model for a lot of the things that I think we want to 
think about in the reauthorization of the Older Americans Act.
    The Older Americans Act has served this nation very well, 
and Texas is a great example of that with our response to the 
hurricanes this past summer. When thousands and hundreds of 
thousands of evacuees came to Texas, they were met by an Aging 
Network that was on the ground in local communities, able to 
meet their particular needs; the fact that there was this 
network in place, not only in Texas but across the country, 
that allowed the response to be so effective and so quick to 
this particular crisis.
    That is perhaps the greatest strength of the Older 
Americans Act, is that it has created in local communities this 
network that has a flexible system of supports and services 
that's responsive to local needs and that is, in fact, driven 
by local decision-making.
    The State Unit on Aging, which I serve in, and the AAA, 
serve as a vital voice in ensuring that our communities prepare 
for the rapidly aging population that you mentioned a minute 
ago. And so this growth in the older population sets the 
framework for three things that I would like to mention this 
morning.
    The first thing is that the Older Americans Act should 
continue to allow states and local communities to address the 
particular needs of local communities. In Texas, and as we sit 
here in the Valley, those concerns are the rural nature of our 
state, as well as the predominant Hispanic population.
    The second thing is, the Older Americans Act should to 
enhance the ability of states to best meet the long-term 
service and support needs of older Texans and all persons with 
disabilities.
    And, finally, the Older Americans Act should empower state 
and local communities to plan and prepare for this rapidly 
growing aging population.
    First let me talk a little bit about the unique population 
needs.
    Texas is a state of great the diversity, and I think the 
lower Rio Grande Valley epitomizes this diversity. Three things 
are important: One, it's predominantly Hispanic; two, there are 
very rural areas in this part of the state; and, three, there 
are still despite the economic of growth that we see around us, 
areas of poverty that need to be addressed.
    Given this diversity, the fact that the Older Americans Act 
allows states and local communities to target populations is a 
very good thing. As part of our Aging Texas Well initiative, we 
conducted some forums across the state to ask what's going on 
in rural communities and how we can better serve those 
communities, and we learned several things.
    One, there is a great pride in local communities in their 
ability to, within that community, take care of themselves, but 
this is made more difficult by a number of different factors, 
and these include in some communities of Texas an eroding local 
economic base to support social services, a confusion about 
where to go to get information about services, and then just 
some just natural barriers such as great distances. And these 
create unique challenges for the Area Agencies on Aging that 
have to serve these areas. These forums also pointed out that 
social isolation is a significant problem in a lot of these 
communities.
    The second thing I'd like to talk about is the ability of 
states to integrate services. This has become a growing 
priority, not just in the State of Texas, where we think in the 
creation of this we have somewhat of a model that would work, 
but it's also a priority in Washington, from what I understand. 
And so as states try to rebalance their long-term care systems, 
as persons with mental retardation and developmental 
disabilities continue to grow older, this need to integrate 
services across population groups becomes ever more important, 
and I think there are a number of proposals that have been 
reported related to the Older Americans Act that would allow us 
to continue both at the federal level and at the state and 
local level to integrate services and better meet needs of all 
of our populations.
    The final thing I would like to talk about is the idea of 
empowering local communities to plan and prepare for an aging 
population.
    In 1997, Texas created an initiative called Aging Texas 
Well. Both Mr. Hinojosa and Chairman Tiberi mentioned the 
declaration of objectives from the Older Americans Act. We kind 
of take our mantra and our model for looking at Aging Texas 
Well from this declaration of objectives.
    As you said, it speaks to a number of different areas of 
life. It's a very holistic overview of the well-being of older 
Texans, and we have modeled our Aging Texas Well initiative to 
look at the policy issues in all of those areas of life to 
improve the lives of older Texans, and both NAAAA and the 
National Association of State Units on Aging as well as the 
White House Conference on Aging have said that within the 
concept of the Older Americans Act we need to do more to help 
states and local communities to do the planning and the 
preparation that they need to do for this rapidly increasing 
older population.
    I don't think it's any accident that Texas, New York, and 
Florida have all established very specific initiatives within 
their states to help local communities prepare for the aging of 
the population. This is probably a model that needs to be 
replicated around the country.
    In conclusion, as you know I'm sure by now, the Older 
Americans Act was the number one priority of the delegates at 
the recent White House Conference on Aging. When the Texas 
delegation was talking about priorities, it was one of their 
top priorities, as well, and I think that reflects on the fact 
that the Older Americans Act has served this nation very well, 
both in times of crisis and on a day-to-day basis. And, as we 
look to the future, it should be a mechanism for helping us 
plan and prepare for a future in which we're going to be a much 
older state, a much older nation.
    With that, I would be glad to answer any questions.
    [The statement of Mr. Urban follows:]

Prepared Statement of Karl Urban, Manager, Policy Analysis and Support, 
           Texas Department of Aging and Disability Services

    Good Morning Chairman Tiberi, Ranking Minority Member Hinojosa and 
members of the subcommittee. On behalf of the Texas Department of Aging 
and Disability Services, thank you for the opportunity to be here, in 
the home district of Representative Hinojosa, to discuss the 
reauthorization of the Older Americans Act (OAA).
    My name is Karl Urban. I am the manager of Policy Analysis and 
Support at the Texas Department of Aging and Disability Services 
(DADS), which serves as the State Unit on Aging in Texas . DADS was 
established in September 2004 as part of a major reorganization of the 
health and human services delivery system. I have been the manager of 
the Aging Texas Well initiative for many years. I will discuss both the 
creation of DADS and the Aging Texas Well initiative as they relate to 
the reauthorization of the OAA in a few moments.
    The OAA has served this nation well. There is no better example of 
this than our recent experience in Texas with Hurricanes Rita and 
Katrina. When hundreds of thousands of evacuees from the Gulf Coast 
fled to Texas, they were met with open arms. More than that, those over 
the age of 60 were met by an Aging Network that quickly mobilized to 
provide them with needed services. From the Harris County Area Agency 
on Aging (AAA) Director, who practically lived at the Astrodome, to AAA 
Directors in all the major cities and along the Gulf Coast, the people 
of the Aging Network worked with DADS and their communities to meet the 
needs of current and new older Texans. At DADS, we commend AAA 
Directors Charlene Hunter James, Curtis Cooper, Holly Anderson, Colleen 
Halliburton, Claude Andrews, Glenda Rogers, and Debbie Billa, among 
others, for serving older Americans so well.
    Not to discount the importance of individuals, the fact that there 
was a network in place was critical. This network was able to include 
work with all the providers of long-term services and supports partners 
across the state as a direct result of the recent creation of DADS. 
Indeed, this is perhaps the most important aspect of the programs of 
the OAA--having in place in local communities a flexible system of 
services and supports that is responsive to local needs and driven by 
local decision-making. This network covers the entire country and was 
supportive during our time in need. For example, the National 
Association of Area Agencies on Aging worked to send assistance from 
other AAAs across the country when we were working in the aftermath of 
the hurricanes last summer.
    In addition to service provision, the State Unit on Aging and AAAs 
serve as a vital voice in ensuring our communities prepare and plan for 
a rapidly growing aging population. Even though Texas is a relatively 
young state, the older population will grow by over 50 percent over the 
next 15 years. This growth sets the framework for three important 
issues that we would like to highlight in our testimony:
    1. The OAA should continue to allow Texas to address the unique 
population needs of our state, particularly those in rural areas and of 
Hispanics.
    2. The OAA should continue to allow and, in fact, enhance the 
ability of states to integrate services to best meet the long-term 
service and support needs of older Texans and all persons with 
disabilities.
    3. The OAA should further empower states and local communities to 
plan and prepare for an aging population.
    I would like to briefly address each of these three points.
    1. The OAA should continue to allow Texas to address the unique 
population needs of our state, particularly those in rural areas and of 
Hispanics.
    Texas is a state of great diversity. Texas recently passed a 
demographic milestone in which the combined minority populations became 
the majority in our state. While it will be a number of years before 
this is the same for the older population of Texas, minority 
populations are growing at a much faster rate than Anglo populations 
among those over age 60. The Lower Rio Grande Valley epitomizes this 
diversity. In the Valley at least three different factors affect the 
delivery of OAA services to older Texans: 1) the population is 
predominantly Hispanic; 2) there are highly rural areas with less 
infrastructure to support delivery of services; and 3) there are great 
pockets of poverty, which increase the need for services.
    According to Census data, the absolute size, ethnic and racial 
diversity, and poverty rate distinguish older Texans from the national 
population. Texas has the fourth largest population of older adults 
(3.1 million) in the nation, and has the second largest older Hispanic 
population in the nation (604,963). Among the over 60 population, 
Hispanics are one of the fastest growing groups. They currently make up 
about 19 percent of the older population but are expected to make up 25 
percent by 2020. In the 14 counties along the Texas/Mexico border, 
older Hispanics account for nearly 71 percent of the older population.
    Economic conditions along the border have not kept up with the rest 
of the state. Estimates from the U.S. Bureau of Labor Statistics show 
that for border counties, especially rural border counties, 
unemployment is generally substantially higher than that of non-border 
areas. Only 19 percent of older Hispanics have a high school diploma 
(versus 70 percent for Anglos). Older Hispanics report a median income 
of $8,400--about 50 percent less than African Americans and nearly 120 
percent less than elderly Anglos. Twenty-five percent of older 
Hispanics are uninsured. With the prevalence of conditions such as 
diabetes 80 percent higher among Hispanics than in the rest of the 
population, OAA initiatives such as disease management services and 
health promotion and nutrition programs are critical for this 
population. Older Hispanics are also more likely to be caregivers of 
young children than are their counterparts. Nearly 50 percent report 
living with grandchildren, with 30 percent serving as the primary 
caregiver of those children. The National Family Caregiver Support 
program, especially with its inclusion of grandparents, is an important 
program for this population.
    Along the Texas-Mexico border, nearly half a million people live in 
substandard conditions known as ``colonias''. Though colonias exist in 
other parts of the state--such as rural East Texas--their prevalence 
along the border presents a great need for services. Residents are 
predominantly Hispanic, young, and untrained. Most have very low 
incomes, inadequate health care, and live in unsound or unsafe housing. 
Despite the commonalities among colonias, there is great variability in 
areas such as population density and level of development. There is no 
single prescription for addressing all of the problems in a given area.
    In recent years, Texas has made progress in improving conditions 
along the border. The Texas Health and Human Services Commission (HHSC) 
implemented a Colonias Initiative in September of 2000 to create a 
coordinated, interagency system for providing services and training to 
colonia residents. The initiative included partnerships with other HHSC 
agencies and service organizations, such as DADS and AAAs, to enhance 
the infrastructure of services and supports. Working with Community 
Resource Centers in these regions, AAAs are able to provide information 
and assistance to help residents obtain much needed services. AAAs have 
also taken part in coordinated efforts to increase enrollment among 
residents in programs such as Medicaid and Medicare. These efforts can 
be particularly challenging given the geographical diversity, low 
population density, cultural and language barriers in these regions. 
However, the outreach efforts and the development of local partnerships 
lay the groundwork for future efforts to strengthen needed 
infrastructure in these regions.
    The last reauthorization of the OAA included rural within the 
definition of target populations. Texas contains many rural counties in 
which over 30 percent of the total population is over the age of 60. As 
part of our Aging Texas Well initiative, we recently conducted a series 
of forums in rural communities across Texas. We learned several things. 
First, there is great pride in these communities in their ability to 
care for one another. However, a number of factors limit the ability of 
communities to support older Texans. These include an eroding local 
economic base to support social services, confusion and lack of 
information about where to go to get services, and natural barriers 
such as great distances. These barriers create unique challenges for 
AAAs that serve these areas. For example, the cost of providing home 
delivered meals, personal attendant or caregiver services often are 
higher due to lack of economies of scale and the cost--both time and 
monetary--involved in traveling great distances. In some areas, it is 
more difficult to find traditional providers and, when they exist, to 
find workers. One way we have addressed these problems, for example, 
was by implementing a voucher system for respite services under the 
National Family Caregiver Support program.
    The rural forums also pointed out that social isolation is a 
significant problem among older Texans. The need for socialization and 
social contact is a critical factor in successful aging. Older adults 
who engage in social activities are more likely to remain mentally and 
physically stimulated, thereby maintaining better overall health and 
quality of life. Texas recently conducted an Aging Texas Well 
Indicators Survey, with 26 percent of the respondents indicating 
loneliness is a problem. Four to five percent of the respondents said 
they talked or spent time with family members, friends or neighbors 
only on a monthly basis; 25 percent reported that they did not have 
daily contact with family members, friends or neighbors. (See Texas 
Department of Aging and Disability Services, Aging Texas Well: 
Indicator Survey Results, 2005, found at http://www.dads.state.tx.us/
news--info/publications/studies/atw--results--report.pdf.) OAA programs 
such as telephone reassurance, nutrition programs and Senior Centers 
remain a valuable way to combat social isolation.
    Given the challenges presented by these unique population 
characteristics, the targeting provisions of the OAA provide AAAs the 
flexibility to be responsive to these unique population needs without 
being overly prescriptive.
    2. The OAA should continue to allow and, in fact, enhance the 
ability of states to integrate services to best meet the long-term 
service and support needs of older Texans and all persons with 
disabilities.
    In anticipation of the growing number of older Americans that may 
need long-term services and supports, there is a growing desire around 
the country to ``re-balance'' long-term care systems. Texas was at the 
forefront of this movement, particularly for aging persons and persons 
with physical disabilities. For example:
    In the early 1980s, Texas began offering home and community-based 
services as an alternative to institutionalization. Since then, while 
home and community-based services have grown significantly, there has 
been no growth in nursing facility utilization despite a significant 
growth in the older population.
    In the late 1990s, Texas was the first state to develop the Money 
Follows the Person concept, which has now been written into federal law 
in the most recent Deficit Reduction Act. In Texas, we have used the 
Money Follows the Person concept to move over 10,000 people out of 
nursing facilities and into the community. AAAs, particularly through 
the nursing facility ombudsman program, have played a role in this 
effort.
    Texas was one of the first states to apply innovative thinking to 
integrating access to services across populations. Texas applied for 
and received funds in the first round of Real Choice System Change 
grants to test a system navigation function. The purpose of these 
grants, which were administered through AAAs, was to help individuals 
and their families ``navigate'' the often confusing system of services 
that are available to persons who are aging or have disabilities. In 
both areas where it was implemented, the results supported development 
of an Aging and Disability Resource Center (ADRC) model even before 
specific grants were available for ADRCs.
    Texas was also one of the first states to test the concept of 
managed care for long-term care through the Star-Plus program in 
Houston, which is now being expanded to more areas of the state.
    In Texas, home and community based Medicaid services are not 
delivered through the Aging Network. However, the Aging Network 
provides a crucial role in the system of long-term services and 
supports. Through access and assistance services, including benefits 
counseling, AAAs help individuals and their families understand public 
and private benefits. Through care coordination services, AAAs assist 
in obtaining those benefits. In addition, OAA services help fill in 
gaps in services caused by the more rigorous rules of Medicaid and for 
individuals waiting eligibility determination. AAAs have also taken a 
lead role in community planning to improve local systems of access, 
with the goal of creating a seamless system of services.
    In September 2004, Texas created DADS as the sole state agency 
focused on delivering long-term services and supports to persons who 
are aging and have disabilities. The agency serves as the State Unit on 
Aging and administers institutional and community based Medicaid 
services to persons with physical and cognitive disabilities. DADS has 
a functional, not population-based, administrative structure to ensure 
the continued integration of services to persons who are aging and have 
disabilities.
    I would like to discuss one example of why this matters. One of the 
realities of an aging population is the increasing number of persons 
with cognitive and physical disabilities who are living longer lives. 
Testimony at a White House Conference on Aging Listening Session 
indicates ``the mean age at death for persons with MR/DD rose from 19 
years in the 1930's to 66 years in 1993, an increase of 247 percent.'' 
The number of adults with MR/DD age 60 or older in the United States is 
expected to be 1.2 million by 2030, twice what it was estimated for 
2000.'' (See Aging with a Developmental Disability 2005 White House 
Conference on Aging Listening Session Testimony 12/8/2004, Chicago 
Illinois.) The aging of persons with cognitive disabilities, in 
particular, creates new challenges for the Aging Network. The 
challenges of integrating new populations into the aging network 
include having the right mix of home and community based services so 
that individuals can age in place, and overcoming issues such as 
``turfism'', lack of proper training, and the lack of knowledge among 
the disability community about services available through the Aging 
Network.
    In creating DADS, our desire is overcome these challenges. The OAA 
recognizes these same challenges. The Administration's proposal to 
create Aging and Disability Resource Centers, consumer directed options 
and more choice in its programs are philosophically consistent with the 
functional design of DADS and the integration of services in Texas. In 
doing so, we believe states need to have the flexibility to design 
service delivery systems at the local level that are responsive to 
needs and desires of the local community.
    3. The OAA should further empower states and local communities to 
plan and prepare for an aging population.
    In 1997, Texas began an initiative called Aging Texas Well. 
Administered by the State Unit on Aging, under the general advocacy and 
planning provisions of the OAA, the purpose of Aging Texas Well is to 
ensure Texans prepare for aging in all aspects of life and that state 
and local social infrastructure facilitates aging well throughout the 
lifespan. The importance of the initiative has been further recognized 
by passage of a resolution by the Texas Legislature (SCR 36, 75th Texas 
Legislature) and, most recently, by an executive order by Governor Rick 
Perry (RP 42).
    The Declaration of Objectives of the OAA provides the conceptual 
framework for Aging Texas Well. When the original OAA was passed, these 
Objectives, which are related to employment, housing, health and other 
life areas, were ahead of their time in recognizing the importance of a 
holistic approach to the wellness of older persons. A second key 
element of Aging Texas Well is its focus on individuals taking 
responsibility to prepare for aging and on communities supporting that 
preparation. A final critical element is the recognition that aging 
well requires a lifespan approach focused on long-term living.
    Aging Texas Well seeks to ensure state policy is responsive to the 
needs of older Texans, consistent with the mandates of the OAA to 
review state policy. It also drives efforts to work with local 
communities to strengthen capacity to support older Americans, again 
consistent with the mandates of the OAA. (More information is available 
at www.agingtexaswell.org.)
    For example, one of the great successes of Aging Texas Well has 
been our internationally recognized Texercise program. Texercise uses 
evidence-based practices through partnerships with the private and non-
profit sectors to create locally based programs to improve the 
nutritional and physical activity habits of older adults. AAAs 
participate in these programs as part of their mandate under the health 
promotion provisions of the OAA. (More information about Texercise is 
available at www.texercise.com.)
    One of the strengths of the OAA is the implicit mandate to the 
Aging Network to take a proactive role in preparing our communities for 
the aging of the population. This mandate could be made more explicit 
in the Act. The need for this type of proactive planning has been 
acknowledged by the delegates at the recent White House Conference on 
Aging, by the National Association of Area Agencies on Aging and by the 
National Association of State Units on Aging. New York (Project 2015), 
Texas (Aging Texas Well) and Florida (Communities for a Lifetime) have 
all begun projects to plan and prepare states and communities for the 
realities of an aging population. The OAA could dedicate resources and 
provide encouragement for other states to do the same.
    In conclusion, as you may be aware, reauthorization of the OAA was 
the highest ranked resolution of the White House Conference on Aging. 
It was also one of the top priorities of the Texas delegation to the 
Conference. This reflects the fact that the OAA has served this country 
well by creating at the local level a system of services to respond on 
a day-to-day basis, and in times of crisis, to the needs of older 
Americans, their families and caregivers. It has been successful 
because of its emphasis on developing community participation and 
resources.
    On behalf of the Texas Department of Aging and Disability Services, 
thank you for this opportunity to testify. I will be glad to answer any 
questions.
                                 ______
                                 
    Chairman Tiberi. Thank you. We're going to go ahead and 
hear from the other three witnesses, and then we'll ask 
questions.
    Mr. Dominguez?

 STATEMENT OF ARMANDO DOMINGUEZ, ASSISTANT DIRECTOR, CENTER ON 
       AGING AND HEALTH, UNIVERSITY OF TEXAS-PAN AMERICA

    Mr. Dominguez. Thank you, sir.
    Chairman Tiberi, Congressman Hinojosa, welcome to the 
University of Texas, where the Center on Aging and Health has 
over 15 years experience conducting basic and applied research 
with a goal of advancing the quality of life of our area 
seniors. With this in mind, we strongly suggest transformation 
as a major impetus underlying the process for reauthorization 
of the Older Americans Act. The new century challenges us to 
think well beyond the demographics and socioeconomic realities 
of the 1960s which figured heavily in formulating the first 
Older Americans Act and subsequent reauthorizations.
    In reauthorizing the Older Americans Act, we should seek a 
collective synergy in making possible its transformation. 
Transformation calls for identifying new possibilities for 
partnering, no longer limited to the young and the old or 
public and private, but for partnering between senior and 
senior, old and old. What do we mean by this proposed 
partnership between senior and senior? It means that we need to 
draw in the well-educated, economically secure and physically 
able baby boomer to partner with another senior not as lucky in 
benefiting from the options made possible by our society. This 
is particularly the case for our current minority population, 
but especially for our future population of boomers who, 
although not quite seniors yet, will be soon entering their 
rank.
    We are at the threshold of having a recognizable number of 
well-educated professionals and small business owners who were 
able to advance with the passage of the Civil Rights Act of 
1964 which opened doors previously closed for most, if not all, 
of us. Yet, just as the existence of this group is made quite 
explicit in our research, we are also painfully aware of 
another group of seniors who, because of adverse circumstances, 
which I will not go into at this time, have not equally 
benefited from these options.
    Still today, the largest number of Valley seniors are 
barely making it, if that, with the very minimum combination of 
SSI Social Security disbursed in Texas, which is less than 
$7,000 a year. These were hardworking people, they struggled 
all of their lives, yet for a myriad of reasons, agricultural 
work, unprincipled employers who did not contribute to the 
Social Security fund, find themselves barely surviving with 
practically no options in their lives.
    Our research indicates that this parallel demographic and 
socioeconomic trend will continue in our communities for quite 
a long time. What is different is that while seniors, poor in 
resources and education, will continue to be very much part of 
our horizon, we have another group that is not. This is the 
synergy that we call for. How to use the human capital of the 
accomplished in partnering with those who are not? Thus we call 
for a new approach, we need to revitalize by understanding this 
new population dynamic which is happening throughout the 
country and amongst most ethic and racial groups.
    In transforming our thinking about seniors and the services 
they need, let us not forget that research indicates that we do 
not stop learning because we have grown old. On the contrary, 
we continue and are capable of learning throughout life. Let us 
revitalize by acknowledging this fact and address the learning 
potential of seniors. Another key word here after partnering is 
learning potential. Seniors, regardless of income and 
education, can learn. And we have substantial proof that 
indicates that our Valley seniors with little education and 
resources succeeded in learning the basics of using a computer 
and communicating with others through the web. We successfully 
trained over 60 Valley seniors with an average of five years of 
education to use the computer and search the web for health-
related information. This process yielded other intangible 
benefits like building their self-esteem, and, even more 
importantly, it has a major impact on their relationships with 
their children and their grandchildren. It opened whole new 
communication channel between generations and advanced the 
position of the elderly within their families.
    Underscoring the need for transformation is the shift from 
acute illnesses of the latter half of the past century to 
present chronic illnesses such as cardiovascular disease, 
cancer, and of course diabetes. Medicine does not have a magic 
bullet for chronic illness as it developed for acute illness. 
Medicine does not have a cure for chronic diseases, it provides 
care. Present and future services for the elderly must be 
revitalized to reflect this medical reality.
    Within this medical reality, there is also a shift that 
demands a better-educated patient. This is why partnering and 
learning potential are key words in revitalizing the act. 
Better educated seniors can mentor those with low health 
literacy to become better informed, to understand management of 
their diseases, health prevention, and, as important, to become 
better health care consumers, and by doing so save Medicare 
dollars from unnecessary medical procedures and waste.
    The well-educated senior can mentor other seniors in 
reaching out and modifying behaviors that may adversely affect 
their health, and in particular for Mexican-Americans of our 
area who many times subscribe to cultural norms toward external 
locus of control, fatalism, dependence on the medical delivery 
system for their care, and overall low health literacy.
    Finally, by transformation we mean the need not only to 
reform but to change the infrastructure to empower our own to 
make informed choices. Our own research at the Center on Aging 
and Health shows that through culturally sensitive approaches, 
older Mexican-Americans can learn to use a computer, eat 
healthier, exercise often, drink five glasses of water daily, 
and altogether modify their behaviors in ways that advanced not 
only their physical but mental health. Many doubted this could 
be achieved, but our outcomes have demonstrated time and again 
the success of our best practice models. This is why the new 
reauthorization needs to become an effort in transformation by 
emphasizing the learning potential of our seniors, of all races 
and ethnicities and socioeconomic classes, through a senior 
technology program, empowerment training, health literacy and 
consumerism, prevention and management of disease, and most 
importantly, by building partnerships between senior and 
senior. This is no longer a choice as we ready ourselves for 
the largest wave of seniors ever in our history, since baby 
boomers will soon enter this stage, this latter stage of life.
    Thank you.
    [The statement of Mr. Dominguez follows:]

Prepared Statement of Armando Dominguez, Assistant Director, Center on 
           Aging and Health, University of Texas-Pan America

Reauthorization of Older American's Act
    The Center on Aging and Health has over 15 years experience 
conducting basic and applied research with the goal of advancing the 
quality of life of our area's seniors. With this in mind, we strongly 
suggest transformation as a major impetus underlying the process for 
reauthorization of the Older American's Act. The new century challenges 
us to think well beyond the demographics and socio-economic realities 
of the 60s which figured heavily in formulating the first Older 
American's Act and subsequent re-authorizations.
    In re-authorizing the Older American's Act we should seek a 
collective synergy in making possible its transformation. 
Transformation calls for identifying new possibilities for partnering, 
no longer limited to the young and the old or public and private, but 
for partnering between senior and senior, old and old. What do we mean 
by this proposed partnership between senior and senior? It means that 
we need to draw in the well educated, economically secure and 
physically able baby boomer to partner with another senior not as lucky 
in benefiting from the options made possible by our society. This is 
particularly the case for our current minority population, but 
especially for our future population of boomers who although not quite 
seniors yet, will be soon entering their rank.
    We are at the threshold of having a recognizable number of well 
educated professionals and small business owners who were able to 
advance with the passage of the Civil Rights Act of 1964 which opened 
doors previously closed for most, if not all, of us. Yet, just as the 
existence of this group is made quite explicit in our research, we are 
also painfully aware of another group of seniors who because of adverse 
circumstances, which I will not take the time to list, have not equally 
benefited from these options. Still, today the largest number of Valley 
seniors are barely making it, if that, with the very minimum 
combination of SSI Social Security dispersed in Texas which is less 
than $7000 a year. These were hard working people, they struggled all 
of their lives, yet for a myriad of reasons, agricultural work, 
unprincipled employers who did not contribute to the Social Security 
fund, find themselves barely surviving with practically no options in 
their lives. Our research indicates that this parallel demographic and 
socio-economic trend will continue in our communities for quite a long 
time. What is different is that while seniors, poor in resources and 
education, will continue to be very much part of our horizon, we now 
have another group that is not. This is the synergy that we call for. 
How to use the human capital of the accomplished in partnering with 
those who are not? Thus we call for a new approach, we need to 
revitalize by understanding this new population dynamic which is 
happening throughout the country and among most ethnic and racial 
groups.
    In transforming our thinking about seniors and the services they 
need, let us not forget that research indicates that we do not stop 
learning because we have grown old. On the contrary, we continue and 
are capable of learning throughout life. Let us revitalize by 
acknowledging this fact and address the learning potential of seniors. 
Another key word here after partnering is learning potential, seniors 
regardless of income and education can learn. And we have substantial 
proof that indicates that our Valley seniors with little formal 
education and resources succeeded in learning the basics of using a 
computer and communicating with others through the web.
    We successfully trained over 60 Valley seniors with an average of 5 
years of education to use the computer and search the web for health 
related information. This process yielded other intangible benefits 
like building their self esteem and, even more importantly, it had a 
major impact on their relationships with children and grandchildren. It 
opened a whole new communication channel between generations and 
advanced the position of the elderly within their families.
    Underscoring the need for transformation is the shift from acute 
illnesses of the latter half of the past century to present chronic 
illnesses such as cardiovascular disease, cancer, and of course 
diabetes. Medicine does not have a magic bullet for chronic illness as 
it developed for acute illness. Medicine does not have a cure for 
chronic diseases, it provides care. Present and future services for the 
elderly must be revitalized to reflect this medical reality.
    Within this medical reality there is also a shift that demands a 
better-educated patient. This is why partnering and learning potential 
are key words in revitalizing the act. Better educated seniors can 
mentor those with low health literacy to become better informed, to 
understand management of their diseases, health prevention and as 
important to become better health care consumers. And by doing so save 
Medicare dollars from unnecessary medical procedures and waste. The 
well educated senior can mentor other seniors in reaching out and 
modifying behaviors that may adversely affect their health, and in 
particular for Mexican-Americans of our area who many times subscribe 
to cultural norms toward external locus of control, fatalism, 
dependence on the medical delivery system for their care, and overall 
low health literacy.
    Finally, by transformation we mean the need not only to reform, but 
to change the infrastructure to empower our own to make informed 
choices. Our own research at the Center on Aging and Health shows that 
through culturally sensitive approaches older Mexican Americans can 
learn to use a computer, eat healthier, exercise often, drink 5 glasses 
of water daily and altogether modify their behaviors in ways that 
advanced not only their physical but mental health. Many doubted this 
could be achieved, but our outcomes have demonstrated time and again 
the success of our best practice models. This is why the new re-
authorization needs to become an effort in transformation by 
emphasizing the learning potential of our seniors, of all races and 
ethnicities, and socio-economic classes through a senior technology 
program, empowerment training, health literacy and consumerism, 
prevention and management of disease, and most importantly, by building 
partnerships between senior and senior. This is no longer a choice as 
we ready ourselves for the largest wave of seniors ever in our history, 
since baby boomers will soon enter this stage of life.
                                 ______
                                 
    Chairman Tiberi. Thank you, Mr. Dominguez.
    Mr. Sullivan?

 STATEMENT OF MARLON SULLIVAN, SENIOR DIRECTOR OF STAFFING FOR 
                         THE HOME DEPOT

    Mr. Sullivan. Mr. Chairman and members of the subcommittee:
    I am pleased to have the opportunity to testify before you 
today and to represent The Home Depot. As mentioned earlier, my 
name is Marlon Sullivan. I am the Senior Director of Staffing 
for The Home Depot.
    As many of you here may know, Home Depot was founded in 
1978 in Atlanta, Georgia, and is currently the world's number 
one home improvement retailer, operating more than 2,000 stores 
across North America. Today, Home Depot is a Fortune 13 
company, which caters to both do-it-yourselfers and 
professional customers who serve the home improvement, 
construction and building and maintenance market segments.
    The Home Depot currently operates in roughly all 50 U.S. 
states, the District of Columbia, nine Canadian provinces, 
Mexico, Puerto Rico, as well as most recently two sourcing 
offices that were opened in China. The Home Depot family of 
companies includes the Home Depot proper, which we call back at 
the home office ``The Orange Box,'' in addition to our EXPO 
design centers and The Home Depot Supply.
    Over the years it's become very clear to us that one of our 
competitive advantages is that of our associates, and in 
particular its diversity of thought and cultural background 
that they bring. We really fundamentally believe that to build 
a workforce that reflects its community is the key to success. 
We also believe that diversity is the catalyst for innovative 
thinking, entrepreneurial spirit, and also for ways of building 
our communities.
    As a sign of our commitment, The Home Depot has joined 
forces starting back in 2002 with a number of national 
nonprofit and government agencies to develop key hiring 
partnerships. Just to name a few today, we have launched hiring 
partnerships with the following organizations and/or agencies, 
including, but not limited to: The Department of Labor, the 
AARP, the Department of Defense, Labor and Veterans Affairs, 
and four of the nation's leading nonprofit Hispanic 
associations, which include ASPIRA; HACU, the Hispanic 
Association of Colleges and Universities; the National Council 
of La Raza, and obviously SER--Jobs for Progress National. 
These partnerships allow us to not only reach out to the 
communities, but also provide us with a broad range of 
qualified candidates with diverse backgrounds, and they also 
provide a unique pipeline for us that will aid us in hiring the 
nearly 20,000 net new jobs we will create in fiscal year 2006.
    And today I am particularly excited to talk about the 
hiring partnership with SER--Jobs for Progress National. It was 
launched back in February 2005 in approximately 40 markets. The 
scope of the partnership is fairly large, including more than 
60 SER affiliates in five states, each of which are operating 
One Stops. As many of you know, One Stops today offer services 
not only to employers, but then also services to their job 
seekers, providing skill sets and training regarding job 
matching, career counseling, and et cetera.
    The success of the hiring partnership to date has enabled 
us to develop an active workforce of qualified associates with 
diverse backgrounds, but that is only one aspect of the 
partnership. An equally as impressive aspect of the partnership 
is SER operating as a SCSEP grantee of the U.S. Department of 
Labor, which affords us the opportunity to leverage the 26 
SCSEP sites that currently exist through SER in 16 states.
    At each of these offices, the SER staff provide candidates 
who have an interest in applying online with hands-on training. 
They also provide them with the option to go to our Home Depot 
stores where they can apply via the kiosks, and then they also 
have the opportunity to apply out of their homes. The 
partnership also brings both SER and The Home Depot the 
opportunity to provide jobs on each of our web sites as well as 
provide promotional materials that are available to each of the 
candidates.
    We have had a number of successes through SCSEP, and I will 
share with you one in particular that I think you will find 
interesting. The SER affiliate in Cleveland has developed a 
customized program with a nearby Home Depot store there, and, 
in essence, a co-partnership led to the job preparation 
curriculum that provides each of the interested candidates with 
clear instructions for how to apply and ensuring they have the 
skill sets available. This particular partnership and the 
development, co-development of this curriculum, has been so 
successful that efforts are currently being made to expand and 
replicate the program statewide first, and potentially 
nationwide.
    The partnership is not only important in terms of 
increasing our ability to reflect our community, but it 
provides us with the ability to provide regular unsubsidized 
employment opportunities to many SCSEP participants, thus 
allowing us to mirror the changing U.S. demographics. A number 
of our panelists have already mentioned some of the 2000 census 
statistics, which include numbers such as the current 
population of 281 million people in the U.S., of which 12 
percent, some 35 million people, are 65 years of age or older, 
and the projection that by 2030, 20 percent of all Americans 
will have passed their 65th birthday, representing 70 million 
people.
    At The Home Depot, we believe knowledge, experience and 
passion never retires. We fundamentally know that mature 
workforce brings honed talent, sound judgment and solid 
experience. We will also know from our customers who have said 
on numerous occasions that senior workers for us has been very 
knowledgeable and customer-service oriented. Our research also 
points to the fact that the retention rate for those in the 50-
plus sector is very strong; in fact, higher than the retail 
norms.
    Given the success of the SER hiring partnership in the 
first six months, we recently agreed to a partnership expansion 
back in October 2005 involving the participation in SER's 
502(e) project, which is a federally funded Older Worker 
Employment Training Program. This program allows the provision 
of technical skills training in preparation for unsubsidized 
employment in the private sector and targets high growth 
industry, thus The Home Depot interest in being a partner from 
the retail industry.
    The initial 502(e) markets include six geographies, three 
of which are located in Texas; that being San Antonio, Houston, 
Fort Worth; and then also Miami, Cleveland, and Los Angeles. In 
each of these locations, there are roughly 23 participants who 
receive a two week pre-employment training, roughly 80 hours in 
total of training, and, of those numbers, we will totally have 
about 140 total applicants who are currently part of this 
program applying for jobs at The Home Depot today for 
opportunities not limited to but including Lot Associates, 
Cashiers, Sales Associates, Sales Specialists and Management 
positions.
    In conclusion, we fundamentally believe a partnership with 
SER and a number of our existing hiring partners provides us 
with a competitive advantage, a highly qualified and diverse 
workforce. We also are honored to enable for the ongoing 
regular and unsubsidized employment of our SCSEP participants, 
and also are very proud to be an active proponent of lifelong 
retooling and upgrading of the nation's workforce.
    Thank you.
    [The statement of Mr. Sullivan follows:]

Prepared Statement of Marlon Sullivan, Senior Director of Staffing, the 
                               Home Depot

    Mr. Chairman and Members of the Subcommittee, I am pleased to have 
the opportunity to testify before you today and represent The Home 
Depot, Inc. My name is Marlon Sullivan, and I am the Senior Director of 
Staffing for the Home Depot. In this capacity, I oversee enterprise-
wide staffing operations, encompassing all domestic and international 
retail stores, distribution centers, call centers, and the US based 
Home Depot headquarters, also known as the Store Support Center. My 
team's responsibilities include policy design, practices development, 
operational improvement, technological innovations, strategic workforce 
planning, field implementation, and strategy development for the 
Staffing function.
    The Home Depot, founded in 1978 in Atlanta, Georgia, is the world's 
#1 home improvement retailer, operating more than 2,000 stores across 
North America. Today, Home Depot is a Fortune 13 company, which caters 
to both do-it-yourselfers and professional customers who serve the home 
improvement, construction and building maintenance market segments. The 
Home Depot currently operates in 50 U.S. states and in the District of 
Columbia, nine Canadian provinces, Mexico, and Puerto Rico as well as 
two sourcing offices in China. The Home Depot family of companies 
includes The Home Depot, EXPO Design Centers and The Home Depot Supply.
    Over the years it has become clear that one of our key competitive 
advantages is our associates and the diversity of thought and cultural 
background they bring to the workplace. That withstanding, the Home 
Depot seeks to build a workforce that reflects its communities. We 
believe that diversity is the catalyst for innovative thinking, 
entrepreneurial spirit and new ways of building our communities. We are 
convinced the greater the diversity of our people, the greater our 
ability to serve our customers and communities.
    As a sign of our commitment, The Home Depot has joined forces with 
national nonprofits and government agencies to develop key hiring 
initiatives. To date, The Home Depot has hiring partnerships with the 
following organizations and agencies: Department of Labor, the AARP, 
the Department of Defense, Labor and Veterans Affairs, and four of the 
nation's leading non-profit Hispanic organizations, including the 
ASPIRA Association, the Hispanic Association of Colleges and 
Universities (HACU), the National Council of La Raza (NCLR), and SER--
Jobs for Progress National. These partnerships allow us to reach out to 
the communities in which we operate, and provide our company with a 
broad range of qualified candidates with diverse backgrounds. In 
addition, these hiring partnerships provide The Home Depot with a 
unique pipeline to assist the company in its hiring for the nearly 
20,000 net new jobs it will create in 2006.
    Today I am here today to talk about our hiring partnership with 
SER--Jobs for Progress National, which was launched in February 2005 in 
approximately 40 markets. The scope of the hiring partnership is very 
board, as it includes more than 60 SER affiliate One Stops nationwide. 
The success of the hiring partnership to date has enabled us to develop 
an active workforce of qualified associates with diverse backgrounds.
    As a Senior Community Service Employment Program (SCSEP) grantee of 
the US Department of Labor, SER's partnership also affords us the use 
of its 26 SCSEP project sites in 16 states. This aspect of the hiring 
partnership enables us to provide regular, unsubsidized employment 
opportunities to many SCSEP participants, thus building an employment 
base that mirrors the changing US demographics.
    According to the 2000 census, the U.S. population is more than 281 
million. Of that, the 65 and older population makes up about 12% of our 
country's citizens, roughly 35 million people. In essence, Baby Boomers 
are maturing at twice the rate of the rest of the population. In fact, 
demographic projections show that by 2030, that population will more 
than double, with 20% of all Americans, or about 70 million people, 
having passed their 65th birthday.
    At The Home Depot, we believe knowledge, experience and passion 
never retires. We know that a mature workforce brings with it honed 
talent, sound judgment and solid experience--precisely the skills and 
attributes we value in our talent pool. Our research indicates that our 
customers feel that mature workers are very knowledgeable and customer-
service oriented. It also points to the fact that the retention rate 
with the 50+ sector is very strong--higher than the retail norms.
    Given the success of the SER hiring partnership in its first 6 
months, The Home Depot agreed to a partnership expansion in October of 
2005 involving participation in SER's ``502(e)'' project, a federally 
funded older worker employment training program. The initial 502(e) 
markets include: San Antonio, Houston, Fort Worth, Miami, Cleveland and 
Los Angeles. As part of SER National's 502(e) On the Job Training 
Program (OJT), 23 participants in each of the 6 markets underwent 2 
weeks of pre-employment training. The 80 hours of training included 
skills such as computer basics, customer service, interview best 
practices and preparing for the Home Depot application. Having recently 
completed training, the 138 total applicants are currently applying on 
line for Home Depot opportunities, which include but are not limited to 
Lot Associate, Cashier, Sales Associate and Sales Specialist.
    In conclusion, the success of the hiring partnership with SER--Jobs 
for Hire National enables Home Depot to enhance its competitive 
advantage by developing a highly qualified, diverse workforce. In turn, 
we are able to provide regular, unsubsidized employment opportunities 
to many SCSEP participants. Meanwhile, the recent expansion of the SER 
hiring partnership to include the 502 (e) OJT further empowers the Home 
Depot to positively impact our communities by playing an active role in 
promoting lifelong retooling and upgrading of the nation's workforce.
                                 ______
                                 
    Chairman Tiberi. Thank you.
    Mr. Perez?

    STATEMENT OF JOSE T. PEREZ, EXECUTIVE DIRECTOR, SENIOR 
               COMMUNITY OUTREACH SERVICES, INC.

    Mr. Perez. Good morning. I want to thank the Committee 
Chairman, Congressman Tiberi, and Congressman Ruben Hinojosa 
for allowing me this opportunity to testify before the House 
Subcommittee on Select Education.
    My name is Jose Perez, Executive Director of Senior 
Community Outreach from Alamo. I also serve as vice president 
of the National Association For Senior Companion Project 
Directors, and I also served as a delegate for the 2005 White 
House Conference on Aging.
    Senior Community Outreach Services is a nonprofit 
organization whose mission statement is to establish a 
comprehensive system of community services that would respond 
to the talent and everyday needs of older persons and to see 
senior citizens of our community have the opportunity to live 
independently, meaningful and dignified lives in their own home 
and community.
    People are living longer, and the family support system 
they once counted on to help them as they age is not always 
there now. Families live miles apart due to economics, while 
adult daughters, who were the primary source of care for 
elderly parents, are now working to support their immediate 
families. However, care is still needed for a much longer time 
than before, due to the increasing longevity of today's 
seniors. The answer for some of these long-term care needs can 
be provided by in-home service provider agencies and the 
utilization of volunteers.
    For the elderly, the absence of in-home support care often 
makes a difference between living independently at home or 
premature placement in a care facility, and may place their 
family caregiver at significant risk of being overextended, 
take a toll on family earnings, workplace productivity, and the 
loss of quality of family life.
    The Senior Companion--I work for the Senior Companion 
Program, which is a wonderful and compassionate program. The 
Senior Companion Program currently administered through the 
Corporation for National and Community Service has been 
serviced in the Rio Grande Valley for the past 30 years. 
Congress established the Senior Companion Program in 1973 to 
utilize low income volunteers to serve and provide assistance 
to home-bound elderly and enable them to continue living 
independently as long as possible. At the same time, the 
program offered healthy seniors age 60 and older the 
opportunity to serve their community by volunteering.
    Today, the Senior Companion Program has 16,000 volunteers, 
providing over 15 million hours of service to 80,000 clients, 
over 227 projects across the country and Puerto Rico. Senior 
companions serve 20 hours per week and receive a small tax-free 
stipend which, by law, does not affect any other benefits they 
may be receiving. Companions also receive liability insurance, 
a meal, and travel allowance while in service.
    Services of the Senior Companion Program are flexible 
enough to meet the needs of the older person. For example, a 
senior companion through a care plan can provide assistance in 
personal care, meaning dressing, grooming, bathing, toiletry 
and exercising, or provide assistance in home management, 
preparing a meal, light house keeping, escort service, 
shopping, tidying, dusting and cleaning, provide protective 
services, oversee and overlooking or looking in on a 
individual's physical or mental well-being, seeing that there's 
no abuse or neglect of those elderly living alone, providing 
information or referrals or arrange services from the 
community, respite care services for family caregivers by 
providing relief from the constant demands of ongoing caring, 
provide an opportunity to take a well-deserved nap, bathe, or 
go shopping or just take a short vacation.
    The cost of having a Senior Companion Program volunteer in 
the Rio Grande Valley is 5,475 per year. We have 110 volunteers 
servicing the Rio Grande Valley. These companions service 330 
clients, for a total of 114,840 hours. The total of the project 
cost is 602,250 per year. This same service outside the 
program, there's an estimated cost of 1,952,280 per year.
    The Senior Companion Program has demonstrated the cost 
effectiveness of providing in-home care support services to the 
family caring for loved ones at home and to frail, isolated 
elderlies striving to maintain independence. In anticipation of 
the baby boomer population coupled with the current growth of 
elderly already in need of support services, to continue to 
live independently, the expansion of the Senior Companion 
Program and other volunteer-modeled programs is imperative.
    My recommendation is the funds should be made available to 
programs that engage senior volunteers to serve as support 
resource to frail older persons still living at home. In doing 
so, we can prevent early institutionalization and save the 
government and families the expensive of institutional care. 
One idea is to amend the Title 3(e) of the Older Americans Act 
Family Caregiver Support Program to establish subprograms of 
volunteer organizations to conduct family caregiver activities 
in order to promote independent living and the lay 
institutional placement for older individuals through the use 
of volunteers, including low income volunteers. Grants should 
be awarded on a competitive basis to use and employ the use of 
volunteers to help older persons requiring long-term care.
    Also, my recommendation is to encourage, enable and 
facilitate collaboration and partnerships among national, state 
and local organizations of government that currently provide 
volunteer and paid work opportunities for people of retirement 
age, in terms of retirement age from all economic backgrounds, 
and to generate more resources to support elders as volunteers 
and to attract baby boomers by expanding and realigning their 
portfolio to include more informal time limit, episodic and 
project-based volunteer service opportunities, as well as full-
time, part-time and episodic pay work opportunities, especially 
in the area of community services, intergenerational 
involvement, independent living and long-term care.
    Another recommendation is to combat ageism by encouraging 
the federal government to provide education and public 
awareness that emphasizes elders as givers of service instead 
of consumers of service, to publicize the positive contribution 
older adults make to their community every day, and that 
focuses on the value of volunteering for people's well-being, 
physical and mental health, independence and self-esteem.
    The 2005 White House Conference on Aging delegates voted 
and made recommendations on the top ten resolutions, and 
reauthorizing the Older Americans Act was number one.
    The second was to develop a coordinated, comprehensive 
long-term care strategy by supporting public and private sector 
initiatives that address financing, choice, quality service 
delivery and the paid and unpaid work force.
    Thank you for this opportunity.
    [The statement of Mr. Perez follows:]

Prepared Statement of Jose Perez, Executive Director, Senior Community 
                        Outreach Services, Inc.

    Good Morning Ladies and Gentlemen, I want to thank the committee 
Chairman Congressman Patrick Tiberi and Congressman Ruben Hinojosa for 
allowing me this opportunity to testify before the subcommittee on 
Select Education.
    Today, I am going to testify on the services provided by Senior 
Community Outreach Services; Specifically, the Senior Companion Program 
with the hope of making recommendations to the committee on how to 
strengthen communities and improve programs and services for seniors.
    My name is Jose T. Perez, Executive Director of Senior Community 
Outreach Services, Inc. We are a non-profit organization whose mission 
statement is to establish a comprehensive system of community services 
that would respond to the talents and every day needs of the older 
person and to see all senior citizens of our community have the 
opportunity to live independent, meaningful, and dignified lives in 
their own homes and community.
Statement
    People are living longer, yet the family support system they once 
counted on to help them as they age is not always there now. Families 
live miles apart due to economics, while adult daughters who were the 
primary source of care for elderly parents are now working to support 
there immediate families, However care is still needed and for a much 
longer time than before due to the increasing longevity of today's 
seniors. The answer for some of these long-term care needs can be 
provided by in-home service agencies and the utilization of volunteers 
through the Senior Companion Program.
    There is a growing need for long term care and independent living 
services for the aged and infirm older persons. It is estimated that 
80% of the care given to the frail older person comes from informal 
sources such as, relatives or friends who assumes the burden of 
providing around the clock care. According to the U.S. censes, by 2020 
the 65+ population will increase from 33 million or 12.7% to 53 
million.
    Substantial portions of the elderly, especially the very old, 
requires assistance with necessary daily activities such as dressing, 
bathing, shopping, or meal preparation. Most frail older persons 
currently living in the community rely primarily on family members and 
friends for personal care, household assistance, transportation, help 
with medications and emotional support. At present, there are more than 
11 million health impaired Americans who experience difficulty in 
performing activities of daily living, 5 million or 50% are elderly, 
while the remainder are the severely disabled and children. For these 
individuals institutionalization can be avoided only by having some 
source of support for their personal care. Because family caregivers 
undergo great sacrifice, studies have shown that a breakdown in the 
physical and/or emotional health of a caregiver can precipitate 
institutionalization for the impaired individual.
    For the elderly the absence of in-home support care often makes the 
difference between living independently at home or premature placement 
into a care facility and/or may place the family caregiver in 
significant risk of being over extended, taking toll on family 
earnings, workplace productivity, and the lose of quality of family 
life.
Senior Companion Program
    The Senior Companion Program currently administered through the 
Corporation for National and Community Service has been servicing the 
Rio Grande Valley for the past 30 years. Congress established the 
Senior Companion Program in 1973 to utilize low-income volunteers to 
serve and provide assistance to homebound elderly, and enable them to 
continue living independently as long as possible. At the same time, 
the program offers healthy seniors age 60 and older the opportunity to 
serve their community by volunteering. Today in 2006 the Senior 
Companion Program has over 16,000 volunteers providing over 15,000,000 
hours of service to over 80,000 clients in over 221 projects across the 
country and in Puerto Rico.
    Senior Companions serve 20 hours per week and receive a small tax-
free stipend, which by law does not affect any of the benefits they may 
be receiving. Companions also receive liability insurance, a meal, and 
travel allowance while in service.
    Services Senior Companion Program are flexible enough to meet the 
needs of the a signed orlder person for example:
    1. Provide assistance in personal care; dressing, grooming, 
bathing, toiletry, and exercising
    2. Provide assisstance in home management, preparing meals, light 
house keeping, escort services, shopping, tidying, dusting, cleaning, 
washing dishes, sweeping, laundering and more.
    3. Providing protective services, over seeing or looking in on the 
individual's mental and physical well being. Seeing that there is no 
abuse or neglect of those elderly living along.
    4. Provide information and referral or arrange services from the 
community, such as, arranging transportation to the doctor or shopping, 
food stamps, etc.
    5. Respite care services for family caregivers by provide relief 
from the constant demands of ongoing caring. Provide an opportunity to 
take a well deserve nap, bath, go shopping, or just take a short 
vacation.
    The Alliance on aging research estimates that annually, the United 
States spends $27 billion more in health care cost for seniors who lose 
their ability to live independently than if they had maintained their 
ability to live on their own.
    The Senior Companion Program is the most compassionate Program ever 
put out by the federal government, it is cost effective and it is a 
program where every body wins. The client wins because they have 
someone taking care of their needs, the family wins because they do not 
have to worry anymore for their love one is being care for, and the tax 
payers do not have pay for their care in an expensive facility, and the 
volunteer wins because of the opportunity to help someone in need and 
rip the rewards of appreciation of the clients.
    The cost of having a Senior Companion volunteer is $5,475 here in 
the Rio Grande Valley we have 110 volunteers in service. These Senior 
Companion services 330 Clients for a total of 114,840 hours per year. 
The total for this project is $ 602,250 per year. This same service 
provided by a for profit business is estimated to be at a cost of 
$1,952,280 per year.
    Seniors as volunteers are a viable and untapped resource with 77 
million baby boomers ready to retire, an abundance of seniors will be 
ready to volunteer if asked.
    The Senior Companion Program has demonstrated the cost 
effectiveness of providing in-home care support services to the 
families caring for loved ones at home and to the frail isolated 
elderly striving to maintain independence. In anticipation of the baby 
boom population, coupled with the current growth of the elderly already 
in need of supportive services to continue to live independently, the 
expansion of the Senior Companion Program and other volunteer model 
programs is imperative.
Recommendation
            More Federal Agency Collaboration
    Funds should be made available to programs that engage senior 
volunteers to serve as a support resource to frail older persons still 
living at home. In doing so, we can prevent early institutionalization 
and save the government and families the expense of institutional care.
    One idea is to amend the Title III-E of the Older American Act/
Family Caregiver Program to establish subprograms of volunteer 
organizations to conduct family caregiver activities in order to 
promote independent living and delay institutional placement for older 
individuals through the use of volunteers, including low income 
volunteers. Grants can be awarded on a competitive basis to use and 
employ the use of volunteers to help older persons requiring long-term 
care, including those receiving home health care and nursing care. ( 
Justification and recommendations are attached as provided by the 
National Association for Senior Companion Project Directors NASCPD)
    Encourage, enable, and facilitate, collaborations and partnerships 
among national, state and local organizations that currently provide 
volunteer and paid work opportunities for people of retirement age from 
all economic backgrounds to generate more resources to support elders 
as volunteers and to attract Baby Boomers by expanding and re-aligning 
their portfolios to include more informal, time-limited, episodic and 
project-based volunteer service opportunities as well as full-time, 
part-time, and episodic paid work opportunities, especially in the 
areas of community services, intergenerational involvement, independent 
living and long term care.
    Combat ageism by encouraging the Federal Government to provide 
education and public awareness that emphasizes elders as givers of 
services instead of consumers of services, that publicizes the positive 
contributions older adults make to their community every day, and that 
focuses on the value of volunteering for people's well-being, physical 
and mental health, independence, and self esteem
    Again, Thank you for this great opportunity.
                                 ______
                                 
    Chairman Tiberi. Thank you, Mr. Perez.
    I'm going to ask one question. I would like to remind 
everybody that your entire testimony is going to be submitted 
in the record. I'm going to ask one question and then I will 
turn it over to my colleague, Mr. Hinojosa.
    Mr. Urban, I read in fact everybody's testimony on the 
plane ride down here, so thank you very much for your time in 
preparing the testimony. But something struck me in your 
testimony that I would like you to expand on a little bit.
    In your written testimony, you talked or you wrote a little 
bit about several initiatives that Texas undertook to modernize 
delivery of your Aging Network, and a couple of them kind of 
stuck out, and I want you to just touch on those. One was your 
Consumer-Directed Care Initiative that you wrote about. Another 
one was Money Following the Person. Can you touch on those two 
a little bit and how they've worked in Texas?
    Mr. Urban. Gladly, and I'll start first with consumer-
directed services.
    A number of states have implemented, and I think Arkansas 
is perhaps the most famous, what are known as Cash and 
Counseling Programs to improve, particularly in their Medicaid 
waiver programs, how individuals are empowered to make more 
choices and have more control over the services that they 
receive. We implemented a program that was similar in concept 
in Texas, in fact we got a Real Choice Grant to look at a 
Service Responsibility Option, is what we call it, model for 
helping empower consumers or clients to direct how their 
services go. So we have done that through our Medicaid 
programs, we've also done that in our Aging Network programs.
    When the National Family Caregiver Support Program was 
funded in Texas, in a number of our rural communities in 
particular, there are not that many providers, which my written 
testimony talks a little bit more about. And so we're striving 
to figure out how to empower these consumers to help, A, find 
providers to help them with services such as respite, and one 
of the ways we were able to do that is through the voucher 
program in which we were able to give the client the cash to go 
out and recruit and hire and control their own provider of 
respite services to help them meet the needs of the person that 
they are providing care-giving to.
    In terms of Money Follows the Person, Texas was the first 
state to implement such a program, and it actually came through 
a rider to the appropriations bill in our legislative process, 
I think probably three sessions ago, and the basic concept was, 
when an individual is in an institution but could be served in 
a community, to take the individual when they transition from 
the institution back to the community and have that money from 
the institutional side of the budget follow the person to the 
community to ensure that there is funding in the community for 
the individual.
    About the same time that we adopted that rider to our 
appropriations bill, we implemented our Promoting Independence 
Plan, and our Promoting Independence Plan was directly in 
response to the Olmstead Supreme Court case. And so we had this 
very focused, focused initiative at the state level to try to 
reach into institutions and those individuals that would prefer 
services in the community to give them the support, services, 
and the transition assistance that they need in the community. 
So we would fill in the gaps with housing, the Aging Network 
would come in with supportive services that they might need in 
the transition period, the ombudsman would work with the 
individual along with other transition specialists to help move 
the individual to the community, and then, if they're a 
Medicaid client, that money follows them into the community so 
we ensured that there were slots in the waiver programs for the 
individual.
    Chairman Tiberi. How does that work? How are seniors 
responding.
    Mr. Urban. We have moved over 10,000 people out of 
institutions into the community across our state, and while it 
is often the case that the younger disabled community 
stakeholders and advocates are pushing very strongly for 
deinstitutionalization, what we have found in Texas is that 
many, many people that are over the age of 60 have made the 
move from the institution, from the nursing facility in 
particular, back into the community.
    So we applaud what Congress has done in the most recent 
Deficit Reduction Act to put in a very specific Money Follows 
the Person program. We think that we have learned a lot in 
Texas about how that works with our experience to do that, and 
we look forward to enhancing our efforts with the additional 
funding that will be available through the DRA.
    Chairman Tiberi. I will have someone from Ohio call you.
    Mr. Urban. Please do so.
    Chairman Tiberi. Thank you.
    Mr. Urban. And I will direct them to the person that can 
really help them with that particular program, as well.
    Chairman Tiberi. Great. Thank you.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I have questions for each of the panelists, and I'm going 
to start with the last presenter, Mr. Perez.
    My question was, it begs the question when I heard you say 
that the cost of having a senior volunteer is a little over 
$5,000 here in South Texas, and that we have 110 volunteers in 
service. You further said that the senior companion service is 
330 clients for a total of 114,840 hours, cost of about 
$600,000 per year, and that the same service provided by a for-
profit business would cost 2 million dollars.
    It reminds me of a hearing that we had in Mission, Texas, 
three weeks ago with 50 farmers who farm in the dry land up 
around McCook, just north of Edinburg, and they were showing us 
that if they planted their seed, that there was--because of the 
drought, there was little probability of it actually taking 
root and yielding what they were expecting from their sorghum 
crop, and their accountants were able to show us that by not 
planting this year, they would save the government some $500 
million in agriculture for those that were suffering from the 
drought in the State of Texas.
    What I hear you say is that if we expanded our senior 
companion volunteer here in Texas it would save the government 
right here one and a half million dollars.
    It also reminds me of the impact that NAFTA had when this 
area displaced approximately 7,500 garment workers when they 
closed down Levis, Haggars, Fruit of the Loom, Dickies, and 
many of these garment workers had worked there for 20 years or 
longer, and trying to give them retraining has not been very 
successful with those with the lowest level of education. It 
seems to me that a program like this could help those displaced 
workers and that many, because of their age, would be wonderful 
senior companion volunteers, and $100 a week, $5,000 a year 
would be a win-win situation for those families and for the 
elderly who need this type of assistance.
    So I want to ask you, Mr. Perez, possibly you and your 
organization can counsel us as to how much more we should 
request from our appropriations committee in this very tight 
budget environment. Do you have any suggestions.
    Mr. Perez. We had our meeting last week at the National 
Association for Senior Companion Project Directors Staff, and 
we came up with a number----
    Mr. Hinojosa. Can you put the speaker closer to you, so 
folks can hear you in the back? Thank you.
    Mr. Perez. Okay. I just came back from a meeting with the 
National Association for Senior Companion Project Directors, 
and considering the deficit that this country is in, we are 
asking for $10 million for 2007, and that is just to expand it 
and keep up with a portion of the growth of the needs here in 
the Valley and elsewhere in the nation.
    Mr. Hinojosa. Thank you.
    Dr. Armando Dominguez, I congratulate you and the Valley 
for establishing the Center on Aging and Health. Now more than 
ever we need the teaching and research that those efforts have 
provided.
    Did the project on training, the 60 Valley seniors you 
mentioned in your statement training in computer literacy, 
include any of the senior-to-senior partnerships you mentioned.
    Mr. Dominguez. Not at that time. We took computers from the 
university warehouse surplus, refurbished them a little bit, 
placed them in senior centers throughout the three-county area, 
and there was a bit of that at the beginning. I can tell you 
that subsequently at one of the centers I get feedback of the 
strength of having computers hooked up to the Internet in these 
senior centers. There is an individual who walks up to me each 
time to thank me for that process, and she says that by going 
on the Internet she was able to help her son find medical help 
way out at the Mayo Clinic, because they're from up north, and 
that she did it by going on the Internet, something she was 
afraid of. She had fear of computers, which we experience area-
wide. And then she says a year later she used the computer yet 
one more time and was able to save herself money for auto 
insurance.
    And in this way, we see the beginning. We see how, and we 
come to then the conclusion that, indeed, by placing the 
computers at the senior, centers we see the beginning of this 
process where now she is able to help those less informed in 
this process, and thus we get this notion of growing this 
concept, of partnering between old and old; those who are 
capable and literate, help those who are less literate, 
especially with low health literacy.
    There is a great deal of information in Spanish about 
health care that was not available five years ago.
    Mr. Hinojosa. Well, I can relate to that story, because I 
have a relative who is in his middle 70s, and he was diagnosed 
with leukemia. He is a cancer survivor, and he didn't know how 
to use the computer. And about, I guess, eight years ago one of 
his children bought a computer for him, and they worked with 
him, and he says that as a result of that he's been able to 
research all of the best hospitals in the country--MD Anderson, 
where he has already been to once, and the Mayo Clinic and 
others--and found everything he possibly can researching on 
leukemia, and your story is something that is very, very true, 
if we could just make the tools available and some assistance.
    I want to ask you one other question. With my experience on 
financial services, I work a great deal on financial literacy 
education programs. I was interested in your comments of trying 
to establish health literacy for seniors. Could you elaborate 
more on that idea?
    Mr. Dominguez. Certainly. Another research project we 
conducted had to do with nutrition and education for those with 
low health literacy. That came about and was conducted in the 
primary language of many of us. At home, we speak Spanish. So 
we conducted these series of health education classes.
    Each class had a specific topic that was linked to a 
specific menu dealing with that health topic. And this time of 
the year, as you know through our little breakfast this 
morning, we also include nopalitos. Nopalitos are the baby 
cactus leaf that is included--it's in season right now, but in 
particular in our culture, it is a cultural identity food item 
for Lent.
    So the project was linked with school public health at the 
University Autonoma de Monterrey. The students came in and 
conducted these health studies, health topics. One of the 
topics this time of year was a juice made with the cactus and 
grapefruit and pineapple. To the day, they still ask me about 
the possibility of continuing that particular research project, 
and they ask about that particular menu. ``Do you remember the 
portions I tried,'' and et cetera.
    Again, from our research, we see here the potential for 
improving health literacy in this model that turned out to be a 
best practice model that was evaluated out of a research outfit 
out of Washington. They found us on the Internet, called us up, 
and they ranked us number two in the country for this type of 
activity. It's called the Academy for Educational Development 
out of Washington, D.C., who was at that point under contract 
with the USDA. And here in our research we find the best 
practice model for improving health literacy among those that 
are not quite as fluent in English.
    Mr. Hinojosa. Thank you for sharing those thoughts. After 
this is over, I would like to maybe visit with you on how in 
the last year we've created a caucus on the Financial Literacy 
Education Program that now has 67 members of Congress.
    Chairman Tiberi. Including me.
    Mr. Hinojosa. Including our Chairman.
    Chairman Tiberi. That's where you're going with this.
    Mr. Hinojosa. And I can tell you that it's moving so 
rapidly because of the number of banks and federal agencies--
actually, they're not federal agencies; they're federally-
sponsored agencies like Freddie Mac and Fannie Mae. It's 
really, really moving forward, so I want to discuss this with 
you, because maybe the Chairman and I could start health caucus 
in Washington, and I would like to back to the Chairman so that 
he can ask some more questions.
    Mr. Dominguez. We welcome the opportunity.
    Chairman Tiberi. Thank you.
    Mr. Sullivan, let me ask you a question that you've 
probably been asked before. What can we do to encourage more 
employers to hire and retain older workers? Much as you have 
been a leader, Home Depot has been a leader in that; what can 
we do to encourage others to follow your lead?
    Mr. Sullivan. I think there are a couple of things. The 
first is what you guys have done today I think is a very 
important step, which is to be able to document in the public 
record the successes that a hiring partnership with a nonprofit 
and a for-profit can have, not just for both of those entities, 
but, more importantly, for the community, as well.
    I think the second is giving some thought potentially to 
the creation of a corporate council which sits with government 
to talk about the changes in U.S. demographics that is visible 
in the 2000 census. Inevitably, corporate leaders either now or 
later will realize that these demographics will ultimately 
change their customer base, will change how their operating 
their business, and if their employee base doesn't mirror the 
community, they're going to be at a competitive disadvantage. 
Having those conversations, again, in an open forum with the 
data I think will also start to overcome some of the hesitancy 
that some of the corporations are having in making that change.
    I think, thirdly, there are things that corporations can 
do, like The Home Depot. Recently I presented at a functional 
presentation, nationwide HR conference, and talked about the 
hiring partnership. The responses that I received after that 
were phenomenal. Many of the folks within retail, even those 
that are not in retail, were very, very interested, and we were 
excited to be able to share the lists of the partners we 
currently have and encourage our peers to get involved, whether 
it be SER or any other hiring partner, to get involved.
    So those are just a few that we thought through.
    Chairman Tiberi. Thank you. Thank you for your input.
    Mr. Dominguez, obviously a lot of people in this room agree 
that disease prevention is preferable to disease treatment, 
whether it be physical activity, whether it be healthy 
nutrition, whether it be training someone on a computer.
    I think of my own mother and father, both of whom were 
immigrants to America, both self-taught. Both my parents now 
use the computer, both self-taught on the computer, and that's 
one of the good things they've done, but for my mother to try 
to get my father out of the house for physical activity is, 
well, you might as well forget it.
    How do we as a society try to encourage seniors to break, 
in many cases, a lifelong habit of not doing things right? 
Whether it be eating right, whether it be lack of physical 
activity, what do we do to solve that dilemma?
    Mr. Dominguez. Behavior modification is, indeed, very 
troublesome. The way that we did it was, in its research, is 
adding a parenthetical phrase to a sentence, so it's very small 
steps. One of the techniques that we utilized for increasing 
water intake that proved to be successful was for the 
individual to label a container with his or her name and pour, 
in the morning, the amount of water that is prescribed; five 
glasses of water. And, again, through research we see the 
benefits when we go into the senior centers and they say, ``Oh, 
I still remember and I still have my jar with my name on it. I 
tell my children not to drink from it.'' That way, at the end 
of the day we don't say, ``Well, was it three or was that four 
glasses that I had?'' We know the amount that that individual 
consumed.
    And, as you point out, women are the caregivers primarily, 
the caretakers in the family. So through our training, through 
our research and these classes that we have, it was the women, 
and then they would invite the husband.
    ``But look, it's so simple.'' And then the exercises that 
we did were designed through our kinesiology department for an 
aging population, exercise and plays with the stretch band, and 
we have a video of that. So when they see their image projected 
as part of what we consider best practices, then the husband 
wants to come in for the next taping to be part of that.
    Chairman Tiberi. Thank you.
    Mr. Hinojosa.
    Mr. Hinojosa. Mr. Sullivan, I'm so glad that you came, 
because I want to share a story with you.
    About a month ago, maybe six weeks ago, I broke bread with 
the president of Home Depot in Atlanta, Georgia. We were having 
a Congressional Hispanic Caucus Institute Retreat, and he 
agreed to have breakfast with us, and I happened to sit next to 
him, and I heard some stories of how Home Depot is partnering, 
as in your presentation, as it applies to health. But I like 
the fact that you-all are involving folks 50, 55 years and 
older in ways that are innovative and very, very helpful that 
could help us continue to drive the unemployment rate down in 
this region where we've experienced for over 30 years double 
digit unemployment.
    So I mentioned to him that we have a region called the 
Delta, and that we, with the help of the Department of 
Commerce, Secretary Gutierrez gave us money to write a 
strategic plan for the Delta Revitalization Project. They had a 
15 percent unemployment, so you can understand my concern as 
their Congressman. And they agreed to look at what I presented 
and ask for assistance, and I need a follow-up.
    Maybe you would be the ambassador for the Delta Region, an 
area that has great potential.
    I want to tell you that some of my friends in Congress 
wanted to know if Edcouch-Elsa was a private high school, and I 
said, ``Well, how come you're asking?'' He says, ``Well, we've 
heard of all these high school graduates that are at Yale, at 
Harvard, at Stanford, at Princeton, at Boston College''----
    Chairman Tiberi. Ohio State.
    [Laughter.]
    Mr. Hinojosa.--in international studies. And I laughed, and 
I said, ``It is the second poorest school district in the whole 
State of Texas out of 1,050 school districts.''
    So there is great potential, but a brain drain. They go and 
they get recruited by big corporations.
    So after this program is over, I would like to sit down 
with you and see if we can have a follow-up of that meeting 
with the President and see if maybe we can involve Home Depot 
in a project that now has the support of Secretary Gutierrez, 
who will be here in the Delta Region, I believe April the 21st. 
And every one of the successful projects that I have been 
involved in that are regional in scope always involve corporate 
partners. The Boy's Club, what we call the high school magnet 
or the magnet high school program we have here on allied 
health, the community college, University of Texas, HESTEC, 
others, all have corporate partners, and I would like to invite 
Home Depot to help us in this one so that we can drive the 
unemployment to look like the rest of Hidalgo County, which is 
6 percent.
    Mr. Sullivan. We would be--well, first, I guess we pride 
ourselves in being a forerunner, and we love challenges, and 
this is one that I think we will be more than happy to explore 
with you and work through.
    Mr. Hinojosa. Well, we have the seed money. We have the 
seed money to launch it. We just need to start off with some 
strong partner like you, Home Depot. And, believe me, we're 
going to incorporate home health and the programs that we have 
been hearing from the presenters, because that's an area that 
has many displaced farm workers, and it has many displaced 
garment workers.
    Mr. Sullivan. We're very excited to explore those, would be 
more than happy to do so.
    Mr. Hinojosa. Wonderful. I would welcome your help.
    And the last part here I wanted to ask is, the program you 
mentioned has the 80-hour on-the-job training, and I would ask, 
is this period sufficient or do you provide some follow-up 
training? I believe that's what I heard you say in your 
presentation.
    Mr. Sullivan. Uh-huh. The training is actually conducted by 
SER as part of the 502(e) project, and it is a total of 80 
hours. What's most impressive about the 80 hours is there is a 
portion of it that's focused on technology training, so getting 
our seniors up to speed on being more comfortable with the 
Internet, understanding how to work through the application 
process and applying online. And typically what we do is once 
our associate is on board, we will do more than a million hours 
of learning and training within The Home Depot.
    So, absolutely, when they're on board, we're training them 
in the department that we brought them into. So we have what's 
called ``Before the Apron'' which is kind of the fundamentals 
of the trade, but then based on their performance we also go 
into very specifics so they can develop an expertise, increase 
their compensation overall and add more value to their 
community.
    Mr. Hinojosa. That's interesting. Approximately what would 
be the estimate that you-all spend per trainee.
    Mr. Sullivan. That, I don't know, unfortunately. It is 
significant investment, though. We have about 345,000 
associates in total, and I do know that we will generate about 
a million hours in learning, so the quick math is that's a 
significant amount of learning per associate that we're 
bringing on.
    Mr. Hinojosa. I wouldn't be surprised if you-all are 
spending over $1,000 per trainee, and that is very significant.
    I find that this hearing has been very interesting, because 
each one of you has brought forward some information that we 
want to see how we can incorporate into the reauthorization 
that's coming up.
    I also want to take this opportunity to recognize and thank 
a few people who have volunteered to submit written testimony 
that the Chairman and I can take back to Washington. I want to 
acknowledge Rachanna Rodriguez, who is with the Family 
Caregiver Program, as well as Joe Gonzalez of the Area Agency 
on Aging.
    [The statement of Mr. Gonzalez follows:]

 Prepared Statement of Joe Gonzalez, Director, Area Agency on Aging of 
                      the Lower Rio Grande Valley

Reauthorize the OAA--Care and Prepare for an Aging America
    Since it was enacted in 1965, the Older Americans Act (OAA) has 
served as the legislative vehicle and guiding force behind efforts to 
help older Americans age in their homes and communities safely and with 
maximum dignity and independence for as long as possible. As the baby 
boom generation ages, ensuring that the necessary supports are in place 
to promote healthy and productive aging has never been more important.
    The OAA offers an extensive range of options for older adults, 
including, but not limited to homecare services, transportation, 
ombudsman, case management, advocacy and assistance. The breadth and 
depth of OAA programs and services provide essential support to older 
adults who wish to age in place.
    One of the reasons the OAA is so successful is that it is based on 
an effective and efficient system--the national Aging Network--which 
serves as the infrastructure for aging service delivery at the federal, 
state and local level. The OAA binds together all 650 Area Agencies on 
Aging (AAAs) and 240 Title VI Native American aging programs across the 
country, providing a support structure for planning, service 
coordination, oversight, and advocacy on programs and services that 
reach more than eight million older Americans every year. AAAs serve as 
the focal point at the community level to link seniors and their family 
caregivers to a myriad of services.
    AAAs serve as a single point of entry for the complex and 
fragmented range of home and community-based services for older adults 
and their caregivers, including congregate and home-delivered meals, 
other in-home services for the vulnerable seniors (such as personal 
care and chore services), elder abuse prevention and protections, the 
nursing home ombudsman program, senior centers, transportation, 
consumer information, education and counseling and senior employment.
    AAAs and Title VI agencies leverage federal dollars with other 
federal, state, local and private funds to meet the needs and provide a 
better quality of life for millions of older adults. According to a 
quote from the Administration on Aging: ``In FY 2003 state and local 
communities leveraged approximately $2 from other sources for every $1 
of federal funding; for intensive in-home services, the ratio was 
closer to $3 to $1.''
    The OAA offers an extensive range of options for older adults, 
including, but not limited to homecare services, transportation, 
ombudsman, case management, advocacy and assistance. The breadth and 
depth of OAA programs and services provide essential support to older 
adults who wish to age in place.
    One of the reasons the OAA is so successful is that it is based on 
an effective and efficient system--the national Aging Network--which 
serves as the infrastructure for aging service delivery at the federal, 
state and local level. The OAA binds together all 650 AAAs and 240 
Title VI Native American aging programs across the country, providing a 
support structure for planning, service coordination, oversight, and 
advocacy on programs and services that reach more than eight million 
older Americans every year. AAAs serve as the focal point at the 
community level to link seniors and their family caregivers to a myriad 
of services.
    AAAs serve as a single point of entry for the complex and 
fragmented range of home and community-based services for older adults 
and their caregivers, including congregate and home-delivered meals, 
other in-home services for the vulnerable seniors (such as personal 
care and chore services), elder abuse prevention and protections, the 
nursing home ombudsman program, senior centers, transportation, 
consumer information, education and counseling and senior employment.
    AAAs and Title VI agencies leverage federal dollars with other 
federal, state, local and private funds to meet the needs and provide a 
better quality of life for millions of older adults. According to AoA: 
``In FY 2003 * * * state and local communities leveraged approximately 
$2 from other sources for every $1 of federal funding; for intensive 
in-home services, the ratio was closer to $3 to $1.''
    Many AAAs manage or receive funding from a variety of sources in 
addition to the OAA, including Medicaid waivers for home and community-
based care, social service block grants, transportation funds, and 
state-funded in-home service programs. AAAs have demonstrated an 
extraordinary record of achievement in stretching limited federal 
resources to help hundreds of thousands of older people avoid costly 
nursing home placement and remain independent. OAA funds make it 
possible for AAAs to leverage millions of non-federal dollars from 
local governments, foundations, the private sector, and participant and 
volunteer contributions.
    This year, the first baby boomers are turning 60, the age of 
eligibility for OAA services. Over the course of the next three 
decades, the aging of the baby boomers will have a direct and dramatic 
impact on national, state and local policies, programs and services. 
With the first of the 77 million baby boomers approaching retirement 
age, and the current senior population experiencing a ``longevity 
boom'' of unprecedented proportions, now is the time for individuals, 
families, communities and the nation as a whole to plan and prepare for 
this coming demographic explosion.
    To balance the current and future needs of the older adult 
population, n4a believes that legislative changes are needed to improve 
the accessibility and quality of OAA programs, while meeting rising 
demand.
    As such, the following are recommendations to be considered for the 
OAA Re-authorization:
1. Help Communities Prepare to Meet Demographic Challenges
    The increase in the numbers of aging citizens will impact the 
social, physical and fiscal fabric of our nation's cities and counties, 
directly and dramatically affecting local aging, health, human 
services, land use, housing, transportation, public safety, workforce 
development, economic development, recreation, education/lifelong 
learning, and volunteerism/civic engagement policies and services.
    Given their mandated role under the OAA to create multi-year plans 
for the development of comprehensive, community-based services which 
meet the needs of older adults, AAAs and Title VI Native American aging 
programs are in a unique position to help communities prepare to 
address the challenges and opportunities posed by the growing numbers 
of older adults.
    New language should be included in the OAA to authorize State Units 
on Aging, Area Agencies on Aging and Title VI Native American aging 
programs to help communities prepare for the aging of the baby boomers.
    New funds will be needed to support this expanded role, which would 
support a full or part-time planning staff position in every AAA. This 
professional planner would offer the Aging Network's expertise to help 
state agencies, local city and county elected officials, local 
government agencies, tribal councils, and private and nonprofit 
organizations to develop policies, programs and services to foster 
livable communities for all ages. In addition we recommend that:
    <bullet> Funding be non-formula based, with a minimum level of 
funding and additional formula-based funding to increase resources to 
more heavily populated service areas, and have a 25 percent non-federal 
match requirement.
    <bullet> It includes non-formula based funding to State Units on 
Aging to coordinate state-level preparedness planning.
    <bullet> A national resource center on aging in place be 
established to provide the necessary guidance, training and technical 
assistance to SUAs, AAAs and Title VI Native American aging programs in 
their efforts to help communities become livable communities for all 
ages.
    <bullet> The new provision be evaluated and sunsetted in 10 years.
2. Strengthen the Aging Network as a Single Point of Entry
    The OAA reauthorization should permanently establish authorized 
Aging and Disability Resource Center (ADRCs) within every service area 
in the nation, with AAAs given the right of first refusal to be 
designated as the ADRC within their service areas. The ADRC program, 
part of the President's New Freedom Initiative, and spearheaded by the 
U.S. Administration on Aging and Centers for Medicare and Medicaid 
Services, has helped 43 states integrate their long-term support 
programs for the elderly and people with disabilities into a single 
coordinated system.
    The OAA and the Aging Network comprise the nation's non-Medicaid 
long-term care system, and many AAAs manage Medicaid home and 
community-based long-term care services. In order to structure a system 
that is easily accessible to all who need long-term care, AAAs and 
Title VI Native American aging programs should be the single point of 
entry for both Medicaid and non-Medicaid long-term care services.
    Many individuals with disabilities, whether age-onset or life-long, 
need information on and access to basic supportive services that will 
enable them to become or remain active and contributing members of the 
community. Over the last 30 years, AAAs and Title VI Native American 
aging programs have developed the infrastructure that coordinates a 
host of programs that provide information on, access to and choices for 
individuals who seek such services.
    AAAs have become the first and most trusted source for older 
Americans and their caregivers who are seeking information on home and 
community based services, both public and private, anywhere in the 
nation. The rising numbers of aging baby boomers will bring a 
corresponding increase in the need and demand for a ``one stop'' source 
of information as well as a single point of entry into the aging 
services system.
3. Enhance the Aging Network's Role in Health Promotion and Disease 
        Prevention
    To enhance the ability of AAAs to carry out health promotion and 
disease prevention efforts, an authorization level of $50 million for 
the Title III-D program and $10 million of the appropriation be set 
aside to pilot, through the AAAs, a community-based collaborative 
between local aging and healthcare providers to promote disease 
prevention services.
    Although only funded at $21 million in prior years and eliminated 
in the President's FY 2007 budget, Title III-D of the OAA has played a 
pivotal role in disease prevention and health promotion services for 
seniors in communities across America. This program has become 
increasingly invaluable as recent evidence-based research continues to 
prove that health promotion and disease prevention not only contribute 
significantly to an individual's quality of life, but also are a cost-
effective means of reducing, or in some cases eliminating, acute or 
chronic care costs.
    As the coordinators and providers of home and community-based 
services at the local level, AAAs and Title VI agencies have long 
recognized the critical importance of health promotion and disease 
prevention. With limited Title III-D funding, these agencies have 
developed innovative programs that improve the physical and mental 
well-being of older adults, while reducing the need for more intensive 
chronic and acute care services. To enable older adults to remain in 
their homes and communities for as long as possible, one critical 
element is engaging in activities that promote healthy living.
4. Increase Authorization Levels to Enhance Home and Community-Based 
        Services
    AAAs, as part of the larger Aging Network, have the ideal 
structure, the established reputation, and the expertise to engage in 
community planning, to serve as the ADRC, and to manage health 
promotion and disease prevention programs. What they lack are adequate 
financial resources.
    The OAA has provided vital community-based supports to millions of 
older adults for forty years. Since 1980, however, there has been a 
substantial loss in the OAA's capacity to provide services to older 
Americans due to rising costs, an increasing number of older adults in 
need of services in general, and the need to provide more extensive 
services to larger numbers of vulnerable older persons living into 
their 80s, 90s and beyond.
    To illustrate how the cost of providing services has risen over the 
last five years, we'd like to share examples of a few situations in 
Texas.
    In many areas of Texas, especially the more rural areas, a pattern 
that holds up across the country, transportation is one of the most 
requested services by older adults. It is also one of the most under-
funded and suffers from the most rapidly rising costs. Lack of funding 
has forced the Lower Rio Grande Valley Area Agency on Aging to seek 
alternatives to provide transportation that may need to fewer trips. 
Besides the oft-recognized increases in fuel costs, vehicle maintenance 
and insurance costs have also risen dramatically.
    Food prices have also risen in recent years, driving up the cost of 
home-delivered and congregate meal programs that are funded under OAA 
Title III. The Area Agency on Aging is expecting an 11% increase in the 
Congregate Meal rate and will be expecting a similar increase in the 
home-delivered meal cost. The Lower Rio Grande Valley Area Agency on 
Aging has funded a breakfast home delivered meal for the last four 
years. Due to the increase cost, the current meal provider is 
contemplating discontinuing this needed service.
    Unfortunately, appropriations for OAA programs over the past five 
years have not reflected these and other increased costs. As a result, 
they have not kept up with demand.
    Another factor also needs consideration. In Texas and nationwide 
this year, the roll-out of the new Medicare Part D prescription drug 
plan has placed additional responsibilities on AAAs, largely without 
additional funding. Older adults and their families have turned to AAAs 
and Title VI programs en masse during the 2005-2006 enrollment 
campaign. Yet only a small number of local aging programs received new 
resources from states or national pilot projects to support their one-
on-one counseling and enrollment assistance efforts.
    To respond to the overwhelming demand for Medicare Rx assistance, 
AAA staff were often shifted from other responsibilities to help with 
Medicare Part D enrollment, making this level of effort unsustainable. 
Even when the initial enrollment period ends, the public will continue 
to turn to AAAs and Title VI aging programs. Millions of seniors will 
continue to need counseling and enrollment assistance every year, as 
they become newly eligible for Medicare or seek to change their 
prescription drug plans.
    In order for AAAs and Title VI Native American aging programs to 
continue the tremendous amount of work that Medicare Rx enrollment 
assistance has generated, they will need new funding to support and 
sustain their efforts.
    In conclusion, to compensate for inflation and the rising costs of 
providing services, it is necessary to raise the authorized funding 
levels of all the titles of the OAA by at least 25 percent above the FY 
2006 appropriated funding level, except for Title III-E which should be 
authorized at $250 million. The increased authorization levels will 
ensure the Aging Network has the necessary resources to adequately 
serve the projected growth in the numbers of older adults, particularly 
the growing ranks of the 85 and older population who are the most 
vulnerable and in the greatest need for aging supportive services. The 
need also exists to allow program income to be used as match.
Conclusion
    The Lower Rio Grande Valley Area Agency on Aging appreciates the 
opportunity to present suggestions for modernizing and strengthening 
the Older Americans Act. We look forward to working with the Lower Rio 
Grande Valley Congressional Delegation to reauthorize the OAA in a way 
that respects the needs of today's older adults and their caregivers, 
recognizes and rewards the cost-effectiveness of home and community-
based care vs. institutional care, and prepares adequately and 
responsibly for the aging boom.
                                 ______
                                 
    Mr. Hinojosa. Joe, thank you for the great leadership that 
you have shown in this area.
    And I also wish to acknowledge Martha Balboa Rochelle of 
the AARP.
    Those three individuals, thank you for agreeing to submit 
written testimony.
    The chairman is running on a very close and tight schedule 
because he has to be on board the airplane by 11:00 to be able 
to speak this afternoon in Ohio, and I can only say that if 
there had been time, we would have had these presentations also 
in a second panel, but we're just fortunate to have gotten him 
and his staff.
    By the way, I want to give all his staff, both of the 
majority and minority party, a big round of applause, because 
they have been on this together.
    [Applause.]
    Mr. Hinojosa. We couldn't possibly get these things done 
without the formidable work that they have done in advancing 
this project. And, again, I never get tired of thanking the 
University of Texas, Dr. Bambi Cardenas, the president, and her 
very competent special assistant Carol Roche. Thank you, Carol, 
for all that you and the staff have done to make this possible. 
And other members who are here, I am very, very appreciative of 
how this has been prepared and conducted.
    I yield back, Mr. Chairman.
    Chairman Tiberi. Thank you again, Mr. Hinojosa. Again, it's 
been a pleasure to be down here once again. The people of the 
15th District of Texas are awfully lucky to have someone of 
this man's quality. I enjoy working with you, and will continue 
to work with you as we work through this process.
    I really thank the witnesses for their valuable time and 
their input, as well. It will be very helpful as we work toward 
the reauthorization. I would like to thank everyone who came, 
and again thank the staff, as well, for their time and 
commitment to making this possible.
    With that, if there is no further business, the 
subcommittee is adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional materials supplied:]

                   Additional Testimony of Jose Perez

    My name is Jose Perez and I serve as Executive Director of Senior 
Community Outreach Services, Inc. in Donna, Texas. I also serve as Vice 
President of the National Association of Senior Companion Project 
Directors representing 16,500 volunteers in 227 projects nationwide 
serving the needs of over 57,700 homebound clients.
    The Senior Companion Program is part of the Corporation for 
National and Community Service Senior Corps. While the Senior Companion 
Program is authorized under another law under the Committee's 
jurisdiction (the Domestic Volunteer Service Act and national service 
laws), our work and that of our sister National Senior Service Corps 
programs (RSVP and Foster Grandparent Program) is interrelated with 
that authorized and supported by the Older Americans Act.
    Through grants and other resources-including the energy and efforts 
of citizens age 55 and over-Senior Corps helps meet the needs and 
challenges of America's communities through three special programs.
    Why are senior volunteers and the programs of the National Senior 
Service Corps relevant to your discussion of Older Americans Act 
reauthorization? Because we are part of the answer to the nation's 
growing long term care challenges and a conduit for bringing senior 
volunteers to the cause of senior services authorized and coordinated 
under the Older Americans Act. And we are educators and advisers in 
getting the word out on programs such as the new Medicare Part D 
option, and can be particularly helpful in communities traditionally 
overlooked in outreach efforts, including language minorities. Senior 
facilitators, resource counselors and Promotoras help individuals 
seeking long-term care support avoid and minimize confusion, enhance 
individual choices and support informed decision making. But we can and 
must do more.
    The first of 77 million baby boomers turn 60 in 2006. These new 
``sexagenarians'' are the tip of the iceberg of the largest, 
healthiest, best educated population of older Americans in our history. 
They are pioneers in a new stage spanning the decades between middle 
and late life and represent an extraordinary pool of social and human 
capital. And, in large numbers, they want to do work that serves a 
greater good.
    Our new seniors were in their formative years when President 
Kennedy issued his call to ``ask not what your country can do for you, 
ask what you can do for your country.'' Millions of our new older 
Americans are determined to apply their experience of a lifetime to 
make a difference for others. Some are able to do so as unpaid 
volunteers. Others, like the low-income seniors enrolled as volunteers 
in the Senior Companion and Foster Grandparent Programs, may need 
incentives to offset the cost of volunteering.
    Too often, seniors looking for services to keep them vital in the 
community are stymied by policies and practices that discourage their 
sharing of experience. As a result, this growing number of Americans 
represents a largely untapped resource in a nation with many unmet 
needs.
    The reauthorization of the Older Americans Act can serve to sound 
the call that seniors are not just recipients of service and a 
potential drain on our economy. Older Americans are the nation's 
fastest growing and most valuable asset.
    As but one example of the importance of collaboration between 
programs of government, Senior Companions throughout the country are an 
integral part of the ``new'' Family Caregiver Support Program. Our 
grantees subcontract with area agencies on aging and others to deliver 
home services and respite services for kin of homebound seniors. But 
much as we are an integral part of senior services administered by the 
Administration on Aging through the Older Americans Act, more needs to 
be done to forge a partnership between federal laws and federal 
agencies--in much the same way as we deliver on the ground in 
communities through the country.
    Do not look at your reauthorization of the Older Americans Act as 
simply renewing critical programs for the nation's seniors. Look to 
this year's legislation as a way to boldly respond to an historic 
chapter in our nation's growth.
    I and my colleagues on the Board and among the membership of the 
National Association of Senior Companion Project Directors and program 
directors in all streams of senior service believe this year's 
reauthorization of the Older Americans Act presents a golden 
opportunity to harness the assets of experience, particularly as the 
Baby Boom Generation nears retirement and our truly golden years.
    We support modifications in the Older Americans Act that would 
amplify the intended role of the Assistant Secretary on Aging as a 
repository of opportunity, service, and information for all older 
Americans. The Administration on Aging is uniquely positioned to take a 
leadership role in coordinating not only the activities of the Federal 
Government as they relate to seniors. AoA can foster cooperation and 
collaboration by example.
    The nation's aging demographic demands that we tap older adults as 
a source of social capital and foster the growth of promising practices 
and program models that develop volunteerism to address critical human 
and community needs especially those of frail, vulnerable populations 
and of overburdened family caregivers.
    Recognizing that this is a tough time of limited tax resources to 
support domestic initiatives, I urge the Subcommittee to recognize the 
cost-effective resources we have at hand. It is critical that you look 
toward program integration and the dissemination of best practices 
among the larger aging network.
    Senior Corps directors and their staff have the experience 
necessary to inform those who deliver services through the aging 
network, even as they deliver services and recruit and train others to 
deliver services themselves. In line with that asset, I urge the 
Subcommittee to include modifications to the Older Americans Act that 
would, at a minimum, encourage and, preferably require, specific 
formalized training and technical assistance from qualified national, 
state, and local organizations to state units on aging and area 
agencies on aging in the recruitment, retention, and training of 
volunteers to assist in operations of the Family Caregiver Support 
Program. Consistent with this initiative, I urge the Subcommittee to 
consider augmenting the Family Caregiver Support Program through 
authority for the designation of a national grantee to share best 
practices to the field of family caregivers.
    I also ask that the committee consider an initiative first proposed 
by President Bush and introduced on a bipartisan basis by Congresswoman 
Nydia Velasquez (D-NY) in prior Congresses calling for a valuable 
incentive for senior service. I speak of the Silver Scholarship 
program. Under the Senior Scholarship initiative, older Americans who 
dedicate at least 600 hours per year in service to their communities, 
in areas such a family caregiver services or literacy training for 
youngsters, would receive an ``education award'' of $1,000 for use in 
helping to defray the cost of higher education. The award would be 
transferable to a family member or other youngster in need. While the 
President's original proposal envisioned the initiative as an amendment 
to national service laws, I encourage the Subcommittee to consider this 
initiative in the context of the Older Americans Act as a formal 
partnership between the Administration on Aging and the Corporation for 
National and Community Service.
    Finally, I ask the Subcommittee's indulgence on a matter not 
strictly germane to the reauthorization of the Older Americans Act. 
That is the minor but badly needed changes which we have promoted in 
the authorization for Senior Corps programs under the national service 
laws, and specifically the Domestic Volunteer Service Act within the 
Committee's jurisdiction.
    I urge the Subcommittee to consider embracing changing the age of 
eligibility for participation in the Senior Companion Program and the 
Foster Grandparent Program from the current age 60 to age 55, as is 
currently the law for participation in the Retired and Senior Volunteer 
Program (RSVP). In addition, I ask that the Committee consider 
increasing the income eligibility for participation in the means-tested 
programs of the Senior Corps (SCP and FGP) from the current law 125% of 
poverty to 200% of poverty, in recognition of the need to grow 
volunteer opportunities for low-income seniors. Taken together, these 
modest changes, which have been endorsed by all three National Senior 
Service Corps Directors Associations, would go far toward meeting the 
desire of senior to serve and the needs of communities who need their 
service. Given the uncertainty of reauthorization of national service 
laws under the Committee's jurisdiction, your action in the context of 
legislation aimed at addressing the Federal Government's role in 
meeting the needs of our greatest natural resource--our seniors--would 
make great sense.
    I, and the Board of Directors of the National Association of Senior 
Companion Project Directors, are available to provide our wealth of 
technical and substantive expertise in support of your reauthorization 
efforts.
    Thank you for this opportunity and I welcome your questions.


                                 <all>
</pre></body></html>
